<html>
<title> - SECURITY AND STABILITY IN AFGHANISTAN: CHALLENGES AND OPPORTUNITIES</title>
<body><pre>[House Hearing, 110 Congress]
[From the U.S. Government Printing Office]


                          [H.A.S.C. No. 110-8]
 
                       SECURITY AND STABILITY IN 
                      AFGHANISTAN: CHALLENGES AND 
                             OPPORTUNITIES 

                               __________

                      COMMITTEE ON ARMED SERVICES

                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED TENTH CONGRESS

                             FIRST SESSION

                               __________

                              HEARING HELD

                            JANUARY 30, 2007

                                     
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                     U.S. GOVERNMENT PRINTING OFFICE

37-308 PDF                 WASHINGTON DC:  2008
---------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing
Office  Internet: bookstore.gpo.gov Phone: toll free (866)512-1800
DC area (202)512-1800  Fax: (202) 512-2250 Mail Stop SSOP, 
Washington, DC 20402-0001

                                     




























































                   HOUSE COMMITTEE ON ARMED SERVICES

                       One Hundred Tenth Congress

                    IKE SKELTON, Missouri, Chairman
JOHN SPRATT, South Carolina          DUNCAN HUNTER, California
SOLOMON P. ORTIZ, Texas              JIM SAXTON, New Jersey
GENE TAYLOR, Mississippi             JOHN M. McHUGH, New York
NEIL ABERCROMBIE, Hawaii             TERRY EVERETT, Alabama
MARTY MEEHAN, Massachusetts          ROSCOE G. BARTLETT, Maryland
SILVESTRE REYES, Texas               HOWARD P. ``BUCK'' McKEON, 
VIC SNYDER, Arkansas                     California
ADAM SMITH, Washington               MAC THORNBERRY, Texas
LORETTA SANCHEZ, California          WALTER B. JONES, North Carolina
MIKE McINTYRE, North Carolina        ROBIN HAYES, North Carolina
ELLEN O. TAUSCHER, California        KEN CALVERT, California
ROBERT A. BRADY, Pennsylvania        JO ANN DAVIS, Virginia
ROBERT ANDREWS, New Jersey           W. TODD AKIN, Missouri
SUSAN A. DAVIS, California           J. RANDY FORBES, Virginia
JAMES R. LANGEVIN, Rhode Island      JEFF MILLER, Florida
RICK LARSEN, Washington              JOE WILSON, South Carolina
JIM COOPER, Tennessee                FRANK A. LoBIONDO, New Jersey
JIM MARSHALL, Georgia                TOM COLE, Oklahoma
MADELEINE Z. BORDALLO, Guam          ROB BISHOP, Utah
MARK UDALL, Colorado                 MICHAEL TURNER, Ohio
DAN BOREN, Oklahoma                  JOHN KLINE, Minnesota
BRAD ELLSWORTH, Indiana              CANDICE S. MILLER, Michigan
NANCY BOYDA, Kansas                  PHIL GINGREY, Georgia
PATRICK MURPHY, Pennsylvania         MIKE ROGERS, Alabama
HANK JOHNSON, Georgia                TRENT FRANKS, Arizona
CAROL SHEA-PORTER, New Hampshire     THELMA DRAKE, Virginia
JOE COURTNEY, Connecticut            CATHY McMORRIS RODGERS, Washington
DAVID LOEBSACK, Iowa                 MICHAEL CONAWAY, Texas
KIRSTEN GILLIBRAND, New York         GEOFF DAVIS, Kentucky
JOE SESTAK, Pennsylvania
GABRIELLE GIFFORDS, Arizona
ELIJAH E. CUMMINGS, Maryland
KATHY CASTOR, Florida
                      Erin Conaton, Staff Director
                Julie Unmacht, Professional Staff Member
              Aileen Alexander, Professional Staff Member
                   Margee Meckstroth, Staff Assistant













































                            C O N T E N T S

                              ----------                              

                     CHRONOLOGICAL LIST OF HEARINGS
                                  2007

                                                                   Page

Hearing:

Tuesday, January 30, 2007, Security and Stability in Afghanistan: 
  Challenges and Opportunities...................................     1

Appendix:

Tuesday, January 30, 2007........................................    47
                              ----------                              

                       TUESDAY, JANUARY 30, 2007
  SECURITY AND STABILITY IN AFGHANISTAN: CHALLENGES AND OPPORTUNITIES
              STATEMENTS PRESENTED BY MEMBERS OF CONGRESS

Hunter, Hon. Duncan, a Representative from California, Ranking 
  Member, Committee on Armed Services............................     3
Skelton, Hon. Ike, a Representative from Missouri, Chairman, 
  Committee on Armed Services....................................     1

                               WITNESSES

Cordesman, Dr. Anthony H., Arleigh A. Burke Chair in Strategy, 
  Center for Strategic and International Studies.................    12
Dobbins, Ambassador James, Director, International Security and 
  Defense Policy Center, Rand National Security Research Division     4
Inderfurth, Ambassador Karl F., John O. Rankin Professor of the 
  Practice of International Affairs, The Elliott School of 
  International Affairs, George Washington University............     7
Jalali, Ali A., Professor, Near East South Asia Center for 
  Strategic Studies, National Defense University.................    10

                                APPENDIX

Prepared Statements:

    Cordesman, Dr. Anthony H.....................................    80
    Dobbins, Ambassador James....................................    51
    Inderfurth, Ambassador Karl F................................    61
    Jalali, Ali A................................................    73

Documents Submitted for the Record:

    Afghanistan: Challenges & The Way Ahead, January 30-31, 2007.    93

Questions and Answers Submitted for the Record:

    [There were no Questions submitted.]
  SECURITY AND STABILITY IN AFGHANISTAN: CHALLENGES AND OPPORTUNITIES

                              ----------                              

                          House of Representatives,
                               Committee on Armed Services,
                         Washington, DC, Tuesday, January 30, 2007.
    The committee met, pursuant to call, at 10:05 a.m., in room 
2118, Rayburn House Office Building, Hon. Ike Skelton (chairman 
of the committee) presiding.

 OPENING STATEMENT OF HON. IKE SKELTON, A REPRESENTATIVE FROM 
        MISSOURI, CHAIRMAN, COMMITTEE ON ARMED SERVICES

    The Chairman. Are all of our witnesses here?
    Gentlemen, thank you for joining us.
    Somebody shut the door, please.
    Before I begin, I might again recommend to the witnesses 
that you confine your statements to four minutes. 
Automatically, without objection, your written testimony will 
be placed in the record.
    The committee is doing a fine job of staying within the 
five-minute rule, so I compliment them and I thank them for 
that.
    Yesterday, I returned from a trip to Kuwait, Iraq, 
Pakistan, Afghanistan, and Germany, as part of a delegation led 
by Speaker Pelosi. Along on this trip were other members who 
were chairmen of various committees or appropriations 
subcommittees that dealt with national security, including our 
very own Silvestre Reyes, who is, as you know, the chairman of 
the Intelligence Committee. Speaker Pelosi led the delegation 
and did a superb job in meeting with the heads of state of four 
of the five countries.
    I greatly appreciate our meetings with Afghanistan's 
President Karzai, Pakistan's President Musharraf, and both the 
American and North Atlantic Treaty Organization (NATO) senior 
commanders.
    It is always wonderful to be with our fighting men and 
women who really were the highlight of our trip. These 
courageous men and women are serving on the front lines with a 
very critical mission of patriotism and devotion. We are truly 
grateful to them. We are grateful to their families for the 
sacrifices that they make.
    The delegation left this country convinced that this has 
become the forgotten war. The war in Afghanistan is the 
forgotten war. I have been saying this for some time, and the 
trip confirmed this.
    We must do more to secure Afghanistan while the effort 
there is still winnable. Reconstruction, governance, and an 
economic base that does not rely on primarily the narcotics 
trade will be the long-term effort.
    But the Taliban, the enemy, the Taliban can be destroyed 
for good, and the Afghan people will have the hope that their 
future lies with a central government, and giving us the 
confidence that this country will not again become a harbor for 
terrorists.
    But to do this, the commanders in Afghanistan must have the 
adequate troops and the right types of them, particularly 
through the spring and the summer months. I believe the 
recently announced increase in troops, strengthened by 
extending the third Brigade of the tenth Mountain Division in 
Afghanistan for four months will help. It will be a sacrifice 
for those troops and their families, but they can't do it 
alone.
    While we should consider what else we need to do for 
Afghanistan, our NATO partners must do more as well. They have 
made commitments to this fight in Afghanistan, both in 
stabilizing the country, as well as reconstruction. They need 
to step up their efforts. Their commander, British General 
David Richards, told the delegation that the countries of the 
alliance must contribute more fighting forces. The whole world 
stands to gain if Afghanistan succeeds.
    I am encouraged by reports of supplemental assistance for 
Afghanistan to be proposed in the Administration's budget 
package. Speaker Pelosi has made clear that Congress will 
expeditiously consider the proposal. We need to look carefully 
at what must be done next in terms of training and the 
equipping of the Afghan security forces, as well as 
reconstruction.
    This committee and others will look at these issues quite 
carefully.
    The challenges in Afghanistan continue to be great. 
Security in Afghanistan necessarily involves the border region 
with Pakistan and the development of competent security forces. 
Opium production is at a record level and, unless tackled more 
aggressively, could undermine all other efforts to stabilize 
the country. Corruption is also rampant, and much of the 
population remains illiterate and impoverished, without even 
the most basic services such as running water and electricity.
    But I believe there is great reason to be optimistic about 
Afghanistan, if we put the right resources there and maintain a 
consistent commitment under a consistent long-term strategy 
that gives that country the attention that it deserves. It is 
the forgotten war.
    So, gentlemen, I hope you can help us understand the way 
forward. This will be the first of several hearings we will 
hold on Afghanistan in the coming months, and you will help us 
set the stage. What are the key challenges facing the United 
States and coalition military operations, the Afghan 
government, the security forces, and counter-narcotics and 
reconstruction efforts? And how should these challenges be 
addressed?
    I am pleased to have with us an exceptionally qualified 
panel of experts.
    We have Ambassador James Dobbins, who served as the 
president's first envoy to Afghanistan following the 9/11 
attacks.
    We have Ambassador Karl Inderfurth, who handled matters 
involving Afghanistan as the assistant secretary of state from 
1997 to 2001.
    We have the Honorable Ali Jalali, Afghanistan's interior 
minister until 2005.
    We have Dr. Anthony Cordesman, an old friend, with the 
Center for Strategic and International Studies, who is another 
one of the country's top experts on Afghanistan.
    Before your testimony, gentlemen, I turn to my good friend 
and my colleague from California, the gentleman from San Diego, 
Duncan Hunter, ranking member.

    STATEMENT OF HON. DUNCAN HUNTER, A REPRESENTATIVE FROM 
    CALIFORNIA, RANKING MEMBER, COMMITTEE ON ARMED SERVICES

    Mr. Hunter. Mr. Chairman, thank you, and thank you for 
having this hearing, which is very timely.
    I also welcome our guests today.
    According to all accounts, the 2006 poppy crop was among 
the highest, if not the highest, ever produced in Afghanistan. 
The United Nations Office on Drugs and Crime stated that the 
amount of land that is now dedicated to poppy crops increased 
61 percent from 2005 to 2006.
    So poppy production in Afghanistan has increased now by 
more than 26 percent, and in the relatively violent provinces 
of Helmand and Oruzgan, production has increased 132 percent. 
In looking at recent planning, some Afghan officials predict 
that next year's yield could easily rival the 2006 crop.
    Gentlemen, I know you are going to speak to this issue. I 
have talked to a number of our organizations which are involved 
in trying to offer that substitute economic base to the Afghan 
people who are involved right now in poppy production.
    It looks to me like one of the most viable, and I would 
like you to talk to this, is orchard plantings--that is, 
almonds and other cash crops, which take a while to get up but 
nonetheless they have a certain permanence that I would think 
would provide an exclusion of poppy plantings in the future.
    If a small farmer has a couple of acres on his little 
postage-stamp farms and puts them in orchards and gets the 
trees up to the point where they can produce something every 
year and make cash for that family, it is probably realistic to 
expect that they are not going to cut the trees down in a given 
year and put poppies in.
    I would like you to talk to this plan, if you would.
    I looked at our bureaucracy that is trying to put this in 
place, lots of great people, well-intentioned folks. Sometimes, 
I have come to the conclusion I get out in our farming areas 
around this country, and you see good old practical, smart, 
scientific American farmers with kind of a can-do attitude. I 
wonder if maybe the operations there, that are in charge of 
these substitute programs, substituting orchards for poppies, 
our bureaucracy might be better populated by some tough, old, 
practical farmers who grow lots of orchards, who are in that 
business, and perhaps insert them up front in the process.
    Another aspect of this, I have been educated as to the loya 
jirgah, the traditions of Afghan society, and especially the 
way decisions are made on a local basis, where you have to make 
a sale of the substitution to local leadership, get them to buy 
in, give them something of substance or a light at the end of 
the tunnel, a program that they have confidence in, to make the 
sale, and then immediately go to work.
    I wonder if we are using that traditional system enough, or 
if we are simply putting in large contractors in Kabul who have 
a limited connection, if you will, with the people on the 
ground and the communities where the poppies are being produced 
in the largest numbers.
    So if you could address that, this idea of substitution. 
Because, in the end, we are going to have to offer these folks 
an alternative. It looks to me, especially if you look at the 
small size of these farms, wheat, or other cash crops that are 
relatively low in value probably aren't going to pull the 
train, but orchards could. I know we have some orchard 
substitute operations going on out there.
    The chairman mentioned that we have, in fact, now 21,000 
U.S. service members now serving in Afghanistan, and that we 
have NATO leadership in Afghanistan. If you look at the nations 
especially who have decided not to participate in bearing the 
burden in Iraq, there are a lot of NATO nations with major 
assets who aren't deploying, aren't volunteering, aren't moving 
up in the Afghanistan program.
    I once looked at the formula whereby NATO participants, 
NATO members participate in military operations. I looked to 
see if there was a formula for burden-sharing, where there is a 
certain goal, even if an informal goal, that the membership 
tries to reach, where everybody pulls their weight. I 
discovered there is none. It is basically a potluck, and that 
means each member of NATO brings what they volunteer. In many 
of these NATO operations, the United States brings the T-bone 
steaks and others bring the plastic forks.
    In this case, there is a compelling interest of all the 
NATO nations to help carry that burden in Afghanistan. I would 
like to have your comments on whether or not you think that 
they are moving forth, that they are assuming that burden, or 
whether they are pushing away from it with a policy that says, 
``Let Uncle Sam do it. It is going to be expensive, it is going 
to be tough, it is going to be politically difficult back home. 
Let's let Uncle Sam carry that burden.''
    If you have any ideas on how we are able to better inspire 
our NATO allies to assume that burden, I would certainly be 
interested in hearing it.
    So thank you for being with us today. I appreciate it.
    And, Mr. Chairman, a very timely hearing that you have 
called, and I look forward to the statements.
    The Chairman. Thank you very much, Mr. Hunter.
    Again, if you could limit your presentation to four 
minutes, we would certainly appreciate it. Without objection, 
each of your full statements will go into the record.
    Ambassador Dobbins.

STATEMENT OF AMBASSADOR JAMES DOBBINS, DIRECTOR, INTERNATIONAL 
  SECURITY AND DEFENSE POLICY CENTER, RAND NATIONAL SECURITY 
                       RESEARCH DIVISION

    Ambassador Dobbins. Thank you.
    Afghanistan has been in the midst of civil war for some 25 
years now. The war waxes and wanes. At the moment, it is 
waxing, and it is worth asking why it is waxing at the moment.
    I think there are two basic reasons. One could be called 
the sin of omission and the other a sin of commission.
    The sin of omission was the failure of the United States, 
the Karzai government and the international community as a 
whole to take advantage of the lull in that conflict that 
followed the collapse of the Taliban in 2001, in order to 
strengthen the capacity of the new Afghan government to project 
its authority and to provide public services, including 
particularly security, to the population beyond Kabul.
    The sin of commission arises from the fragmentation of the 
international coalition that the United States put together in 
late 2001 and the threat to Afghanistan arising from Pakistan.
    In the aftermath of the collapse of the Taliban, the United 
States and the rest of the international community had a golden 
occasion to help the Afghans build an effective government, 
capable of providing its population with the most basic public 
services. We largely failed to seize this opportunity.
    During those early years, the U.S. and international 
assistance was minimal. Blame for this failure can be widely 
shared, but this minimalist approach did reflect the American 
Administration's then early aversion to nation-building.
    Well into 2003, the Administration was quite vocal in 
touting the merits of its low-profile, small-footprint 
alternative to the more robust nation-building efforts that the 
Clinton Administration had led in Bosnia and Kosovo. Top 
Administration officials argued that generous international 
assistance had caused those Balkan societies to become 
inordinately dependent on external funding and foreign troops, 
something that they wanted to avoid in Afghanistan and also in 
Iraq.
    In pursuit of this severely limited vision of nation-
building, the United States initially sought to minimize the 
size, the geographical scope and the functions of the 
International Security Assistance Force. Washington rejected 
pleas from Karzai and the United Nations (U.N.) to deploy these 
international peacekeepers outside Kabul. The Administration 
discouraged any role for NATO in Afghanistan. It also refused 
to assign peacekeeping functions to American forces operating 
throughout the country.
    Economic assistance to Afghanistan was also commensurately 
low. In the first year following the collapse of the Taliban, 
the United States committed some $500 million in reconstruction 
aid to Afghanistan. Compare that figure to the $18 billion that 
the Administration requested for Iraq in the first year there, 
a country no bigger than Afghanistan, much richer and much less 
destroyed.
    Now, by 2004, the Administration began to recognize that 
these efforts were inadequate and started to increase the size 
of its aid program and of its military forces. Those increases 
are continuing today.
    Two vital years had been lost, however, years during which 
little progress had been made in extending effective governance 
in the countryside. As a result, when the Taliban threat did 
re-emerge, much of the population had no particular reason to 
risk their lives for a government that could neither protect 
them nor advance their material well-being.
    Now, this can explain why the population was somewhat 
receptive to a resurgent Taliban, but it doesn't explain why 
the Taliban resurgence occurred.
    The current insurgency in Afghanistan does not arise from a 
profound disaffection among large elements of the Afghan 
population with their government. This insurgency has been 
raised in Pakistan by individuals resident in Pakistan, some of 
whom are refugees from Afghanistan, others of whom are native 
Pakistanis.
    For tens of millions of Pashtun tribesmen on both sides of 
the border, the distinction between Afghanistan and Pakistan is 
indeed somewhat artificial, as they don't recognize the border. 
The degree of Pakistani complicity in this insurgency is a 
matter of some controversy.
    Speaking privately, knowledgeable American, NATO, Afghan 
and U.N. officials are nearly unanimous in asserting that the 
Pakistani intelligence service continues to collaborate with 
the Taliban and other insurgent groups. For its part, the 
Pakistani government at the highest level denies any official 
sanction for these activities.
    Now, the United States has complained loudly in recent 
months about Iranian support for sectarian support for 
sectarian violence in Iraq. At this point, lacking any access 
to intelligence data, it is difficult to fully assess the 
degree of official Iranian support for civil war in Iraq or 
official Pakistani support for civil war in Afghanistan.
    What does seem indisputably clear, however, is that 
Pakistani citizens, residents, money and territory are playing 
a much greater role in the Afghan civil war than are Iranian 
citizens, residents, money or territory in the Iraqi civil war.
    One hears that the decision to invade Iraq in 2003 diverted 
American manpower and money from Afghanistan. This may be true, 
but a more serious charge is that the conflict in Iraq has 
diverted American attention from the real central front in the 
war on terror, which is neither in Iraq nor Afghanistan, but in 
Pakistan.
    Al Qaeda, after all, is headquartered in Pakistan. The 
Taliban is operating out of Pakistan, as are several other 
insurgent groups operating against American forces in 
Afghanistan. Bin Laden lives in Pakistan. Mullah Omar lives in 
Pakistan. It was Pakistan that assisted the North Korean and 
Iranian nuclear programs. Potential terrorists from Western 
societies still travel to Pakistan for inspiration, guidance, 
support, and direction.
    Yet, if Pakistan is the central front on the war on terror, 
it is not one susceptible to a military response. We are not 
going to bomb Islamabad or invade Waziristan.
    An increase in U.S. military manpower and money for 
Afghanistan, such as the Administration currently proposes, may 
well contain the renewed insurgency and prevent the Karzai 
government from being overthrown. But U.S. and NATO troops are 
likely to be required there indefinitely as long as the Taliban 
and other insurgent groups are able to recruit, train, raise 
funds, and organize their operations in Pakistan.
    At present, NATO is manning the Afghan frontier but doing 
little or nothing to address the threat coming from across the 
other side of the border. This is bit akin to NATO having 
guarded the Fulda Gap throughout the Cold War for 40 years, 
but, having had no agreed policies for dealing with the Soviet 
Union, in fact, the opposite occurred. Consultation about the 
Soviet Union occupied 90 percent of every NATO ministerial and 
summit meeting for 40 years. It is time that consultations on 
Pakistan occupied a similarly central place in the 
transatlantic dialogue.
    Now, as I have said, the problem of Pakistan is not one 
that is susceptible to a military solution. It is largely going 
to require much more positive incentives that persuade the 
Pakistanis to begin to assert control of their own society and 
prevent their territory and their population from being used 
against a neighboring state and against NATO and American 
forces that are operating there.
    Thank you.
    [The prepared statement of Ambassador Dobbins can be found 
in the Appendix on page 51.]
    The Chairman. Thank you, Mr. Ambassador.
    Ambassador Inderfurth. Did I pronounce it correctly?
    Ambassador Inderfurth. Yes, sir.
    The Chairman. Thank you.

  STATEMENT OF AMBASSADOR KARL F. INDERFURTH, JOHN O. RANKIN 
PROFESSOR OF THE PRACTICE OF INTERNATIONAL AFFAIRS, THE ELLIOTT 
 SCHOOL OF INTERNATIONAL AFFAIRS, GEORGE WASHINGTON UNIVERSITY

    Ambassador Inderfurth. Mr. Chairman, Ranking Member Hunter, 
members of the committee, thank you very much for your 
invitation.
    In my testimony, I will identify five challenges facing 
Afghanistan and make several recommendations, introduce three 
cautionary notes for your consideration, and then cite what I 
consider to be the most important opportunity the committee and 
the Congress have to ensure Afghanistan's long-term security 
and stability.
    May I begin by calling attention to the first piece of 
legislation passed by the new House of Representatives on 
January 9, H.R. 1, the ``Implementing the 9/11 Commission 
Recommendations Act of 2007.'' That bill focused on the 
unfinished business of the 9/11 Commission recommendations, 
including Section 1441 on Afghanistan.
    Let me remind you that the 9/11 Commission identified 
Afghanistan as the incubator for al Qaeda and for the 9/11 
attacks, and recommended that the United States and the 
international community should make a long-term commitment to a 
secure and stable Afghanistan.
    The commission also warned that failed half-measures could 
be worse than useless. Five years after 9/11, half-measures in 
Afghanistan by the United States and the international 
community are failing to provide security, rebuild the country 
or combat the exploding drug trade. Afghanistan is still very 
much a nation at risk.
    From the outset, the United States went about establishing 
a light footprint in Afghanistan. The recent report of the Iraq 
Study Group identified one of the principal reasons, and I 
quote: ``The huge focus of U.S. political, military, and 
economic support on Iraq has necessarily diverted attention 
from Afghanistan.'' But the international community also joined 
in that light footprint.
    Today, Afghanistan is in need of full measures. The country 
must receive the priority, attention, and resources it 
deserves.
    Now, let me briefly cite the five challenges facing 
Afghanistan today. I am, of course, prepared to elaborate on 
any of these in our discussion after our statements.
    Challenge number one, providing greater security. More 
troops are needed. NATO's commanding general says he is 4,000 
to 5,000 troops short. Last week, the Pentagon announced that 
it will keep 3,200 of its troops in Afghanistan for an extra 4 
months. This is a positive response to the NATO troop 
shortfall, but it will not be sufficient.
    At the upcoming NATO defense ministers' meeting in Seville, 
Secretary Gates should announce that the U.S. is prepared to 
add extra forces, but the U.S. should not bear this burden 
alone. Other NATO members must come forward with firm troop 
commitments and a willingness to join the fight.
    Challenge number two, securing the Afghan-Pakistan border. 
As long as the Taliban have a safe haven in Pakistan, to use 
the recent words of Director of National Intelligence (DNI) 
Director John Negroponte, ``They can continue their insurgency 
indefinitely, making it virtually impossible to secure and 
provide a stable Afghanistan.''
    There are several steps, both short-term and long-term, 
which I believe can be taken to meet this objective. Secretary 
Rice should have this at the top of her agenda when she travels 
to Pakistan next month to meet with President Musharraf.
    Challenge number three, building up the Afghan security 
forces. Greater priority must be given to standing up 
Afghanistan security forces, the Afghan National Army, the ANA, 
and especially the Afghan National Police, the ANP. The recent 
announcement by the Bush administration that it is going to 
request over a two-year period $8.6 billion in additional 
assistance for these forces is an important step forward and I 
believe should be supported.
    Challenge number four, tackling the drug trade. Afghanistan 
is in danger of becoming a full-fledged narco-state. A multi-
pronged approach is needed to combat it, including greater 
assistance from U.S. and NATO-led military forces. The Afghan 
army, police and counter-narcotics forces are not yet up to 
this job. Drug revenues are supporting the Taliban and helping 
fuel the growing insurgency, placing U.S. and NATO forces at 
greater risk.
    Challenge number five, accelerating reconstruction. One 
year ago this month, more than 60 countries and international 
organizations gathered in London. That meeting provided the 
international community another opportunity to match its stated 
commitment to rebuild Afghanistan with the resources necessary 
to accomplish that task. Two previous donor conferences, in 
Tokyo in 2002 and Berlin in 2004, fell short. Unfortunately, so 
did London. Another opportunity will present itself in April, 
when Italy hosts the next international donors conference. 
Using Secretary Rice's words, we should redouble our efforts.
    Now, quickly let me turn to three cautionary notes for the 
committee to consider.
    Note number one, don't open an Afghan front against Iran. 
Pakistan is not the only neighbor that has a strong stake in 
Afghanistan, including religious, cultural, and economic ties. 
So does Iran.
    According to recent news reports, the Bush administration 
is preparing more aggressive moves to undermine Iranian 
interests among Shiites in western Afghanistan. This would be 
ill-advised. Such a move by the U.S. would certainly complicate 
and likely prove counterproductive to President Karzai's 
efforts to normalize and stabilize relations with his western 
neighbor.
    Cautionary note number two, Afghanistan is not Colombia. It 
was reported last week that on a trip to Colombia, General 
Peter Pace said that country could serve as a template for 
Afghan efforts to fight drug production. The U.S. approach in 
Colombia has invested heavily in chemical eradication of coca 
fields. Assistance to farmers to switch to growing legal crops 
has received far less attention or assistance.
    President Karzai favors the exact opposite approach. He has 
opposed spraying the poppy fields with herbicides, believing 
that that would cause further hardship for Afghan farmers, 
generate a political backlash and undermine his authority.
    Cautionary note number three, it is their country. As we 
examine the challenges facing Afghanistan today and consider 
what we can do about them, it is important to remind ourselves 
we must listen to and respect what the Afghans themselves see 
as their needs and priorities. It is, after all, their country 
and they know it best.
    For that reason, I have attached to my testimony and would 
like to include in the record a copy of the report prepared by 
the government of Afghanistan for a meeting beginning today in 
Berlin with officials of the European Union. The paper is 
entitled, ``Afghanistan: Challenges and the Way Ahead,'' 
remarkably similar to the topic for today's hearing.
    Let me conclude with what I consider a most important 
opportunity this committee and the Congress have to ensure 
Afghanistan's long-term security and stability. It is this: You 
have the opportunity to make an important mid-course adjustment 
in U.S. policy toward Afghanistan, to move away from the half-
measures the 9/11 Commission warned against and to make 
Afghanistan a model--a model--of bipartisan cooperation.
    From those terrible days just after the 9/11 attacks, the 
Congress, Democrats and Republicans alike, have supported our 
nation's military action and our commitment in Afghanistan. 
Just two days ago, Speaker Pelosi told President Karzai in 
Kabul that Afghanistan continues to have strong bipartisan 
support in Congress. Afghanistan's future is counting on it.
    Thank you very much.
    [The information referred to can be found in the Appendix 
on page 93.]
    [The prepared statement of Ambassador Inderfurth can be 
found in the Appendix on page 61.]
    The Chairman. Thank you very much.
    I should have also mentioned that on our trip, it was a 
bipartisan trip; a ranking member from an appropriations 
subcommittee was along with us.
    And, Mr. Jalali, please.

  STATEMENT OF PROFESSOR ALI A. JALALI, NEAR EAST SOUTH ASIA 
   CENTER FOR STRATEGIC STUDIES, NATIONAL DEFENSE UNIVERSITY

    Mr. Jalali. Thank you.
    Chairman Skelton, Ranking Member Hunter, and members of the 
committee, thank you for the invitation to offer my evaluation 
of the security situation in Afghanistan. The assessment I 
offer today is based entirely on my own views and personal 
judgment.
    Mr. Chairman, recently press guidelines on Afghanistan have 
been negative. The country is faced with a revitalized Taliban-
led insurgency, a record rise in drug production, a 
deterioration of the rule of law, and a weakening grip of the 
national government over many districts in the south and 
southeast.
    But, despite these troubling developments, there is also 
good news that unfortunately becomes no news.
    Following the ouster of the Taliban in 2001, Afghanistan 
scored numerous achievements in its transition to democracy. 
Afghans are freer today than they were under the Taliban. Eight 
of ten Afghans, or 80 percent of Afghans, support the presence 
of the international force in Afghanistan. More than 80 percent 
prefer the current government, despite the problems, over the 
Taliban government.
    While this progress is notable, the current troubles are 
immense, and they are the result of what was not done, rather 
than what was done.
    The light footprint that was mentioned before by my 
colleagues was not a sufficient response to the immense 
destruction that Afghanistan suffered for many years. 
International engagement with Afghanistan was guided by two 
contradictory concepts. On the one hand, it was considered to 
be the main warfront on the war on terror. On the other hand, 
the involvement was a light-footprint engagement.
    The Taliban were removed from power, but neither the 
potential to come back nor their extensive support was 
addressed. Competing demands for a response to immediate 
security needs and the requirements of long-term priorities 
were not balanced effectively, even though they were mutually 
reinforcing.
    And inefficient use of insufficient funds, outside of 
Afghan government control, failed to create economic 
opportunities, good governance, and the rule of law.
    The key to resolving these current problems in Afghanistan 
is doing what was not done. This includes ending the 
insurgency, creating effective governance and indigenous 
security capacity, establishing the rule of law, and fostering 
economic development that can replace the illicit drug trade 
with legal economic activities.
    The process needs renewed international attention, more 
troops, sufficient funds, and international political backing 
of the Afghan government in making hard decisions to reform.
    There are three major immediate challenges facing 
Afghanistan: ending the insurgency, building security capacity 
and the rule of law, and development.
    The Taliban-led insurgency is not rooted in a popular 
ideology. The people of Afghanistan rejected the leadership, 
the ideology, and the political vision of the Taliban and their 
militant groups long ago, and it continues.
    The insurgents have safe havens in Pakistan and enjoy 
technical and operational assistance from transnational 
extremist groups. They exploit the lack of development, 
insecurity, and the absence of the rule of law in the southern 
and eastern provinces of Afghanistan. Ending the insurgency 
requires the removal of both domestic and external sources of 
violence.
    The external sources of violence in Pakistan, which should 
be approached on the basis of regional strategy, which will 
include the legitimate concerns of all countries in the region, 
and also removal of sanctuaries of the Taliban-led insurgency 
in the Pakistani territory.
    Although the insurgents are not yet capable to overthrow 
the Afghan government, they feel they are winning by not 
losing. On the other hand, the counter-insurgency operations 
can lose, but not win.
    Although there is no military solution to the insurgency, 
military action is needed to provide a secure environment for 
development, good governance, and the rule of law.
    Expecting heated fighting this spring, there is a need for 
enhanced military capability to face the threat. The need is 
not only for more troops, but also for the removal of 
operational restrictions imposed on some NATO forces deployed 
in Afghanistan.
    Afghanistan has laid the foundation of security 
institutions and the rule of law, but the process has been 
underfunded, slow, and uneven. The progress in building the use 
and support of the Afghan National Army (ANA) has been 
remarkable, but despite the use of donated vehicles, small 
arms, and other equipment, the ANA suffers from insufficient 
firepower, the lack of indigenous combat air support, and the 
absence of a self-sustaining operational budget. Therefore, it 
continues to depend on military support from International 
Security Assistance Forces (ISAF) and coalition forces.
    With the main focus on fighting insurgency and militial 
violence, police capacity-building was not the pacing element 
in reform of the security sector, or nor were broader rule-of-
law considerations. Little international attention has been 
paid to the development of the Afghan National Police.
    A recent U.S. interagency assistance to Afghanistan police 
program indicates that the police readiness level to perform 
conventional police functions and carry out its internal 
security mission is far from adequate. The report suggests that 
long-term U.S. assistance in funding, at least beyond 2010, is 
required to institutionalize the police force and establish a 
self-sustaining program.
    Afghanistan cannot achieve peace merely by fighting and 
killing the insurgents. Neither are development projects alone 
likely to win the hearts and minds of the people, as long as 
the threats emanating from militia commanders, drug 
traffickers, corrupt provincial and district administrators, as 
well as government incompetence, remain.
    So efforts to defeat the insurgents, build peace and 
development should be sought through the establishment of the 
rule of law that guarantees human security. This means that 
security operations by international forces and the Afghan army 
and police should be seen as a subset of the rule of law and 
not the other way around.
    Security and peace are achieved through winning the hearts 
and minds of the people, and not only through military 
operations.
    And finally, Mr. Chairman, today there is a feeling of 
disenchantment at two levels in Afghanistan that dangerously 
affects the stability in Afghanistan.
    At one level, the Afghan government has doubts about the 
sustainability of foreign assistance and the capacity of the 
international community's commitment to face the rising threats 
and invest in long-term development of the country. This 
inhibits the government from acting decisively, as it becomes 
dependent on nonstatutory power-holders, self-serving 
opportunists and militia commanders.
    At the second level, the public is disillusioned with the 
lack of government will and capacity to protect the people and 
deliver needed services. Such public opinion in the unstable 
south nourishes support for the Taliban.
    Addressing the two levels of the disenchantment is the key 
to improving the situation. The international community must 
provide the Afghan government the means to foster security and 
development. The Afghan government needs to create an 
environment of human security in rural areas for regaining the 
hearts and minds of the public.
    Thank you, Mr. Chairman.
    [The prepared statement of Mr. Jalali can be found in the 
Appendix on page 73.]
    The Chairman. Mr. Minister, thank you so much for your 
testimony and for being with us.
    Dr. Tony Cordesman. Thank you.

 STATEMENT OF DR. ANTHONY H. CORDESMAN, ARLEIGH A. BURKE CHAIR 
  IN STRATEGY, CENTER FOR STRATEGIC AND INTERNATIONAL STUDIES

    Dr. Cordesman. Mr. Chairman, members of the committee, I 
appreciate the opportunity to testify today.
    The Chairman. Can you bring that a little closer, Tony?
    Dr. Cordesman. Sorry.
    Mr. Chairman, members of the committee, I appreciate the 
opportunity to testify today.
    I would like to have my statement read into the record.
    And, unfortunately, I also prepared a briefing which showed 
what is taking place in terms of changes in the threat, in 
terms of maps, public opinion polls and so on. We couldn't get 
that copied, but I would be grateful if it could be read into 
the record.
    The Chairman. Without objection.
    Dr. Cordesman. And I say this because I have, I think, a 
much more negative view of how bad things are in Afghanistan 
and how much effort is really needed to fix this situation than 
some of the previous witnesses.
    My impressions, having been there, is we have years of very 
patient effort and expensive, dedicated effort to make this 
thing work.
    The Afghan government is not ready at the center. It is not 
ready at the districts. It is not ready at the local level. 
There is no one there with qualifications, integrity and 
competence in far too many areas and far too many places. To 
build up what is needed is going to take a very serious aid 
effort, and it is going to take a lot more people in the field.
    One key issue here is it is the quality of governance that 
people see in the province and at the local level that matters. 
The American obsession with elections and with human-rights 
legislation is irrelevant if it is not translated into activity 
and practical experience and services in the field. Today, 
those tests are not being met in rural areas and in much of the 
country. And it is going to take a long time to build this up.
    I think one key test to the committee is, is there a 
credible five-to ten-year plan? Are there metrics of success? 
Can you show the resources are adequate in any given area?
    And that is not money spent or buildings completed. It is, 
are you actually accomplishing something? And, far too often, 
the answer is: We are spending money without accomplishing 
things. We have people who are performing symbolic projects at 
local levels that do not reach the country. That is not a test 
of competence.
    What will it take? When you look at a map of the 
effectiveness of economic aid projects, most of the country, 
most urban areas do not have people who see any impact from the 
aid. Seventy percent of this country is rural. We have never 
funded a program which can reach out to the villages, reach out 
to the farms. We are talking areas which have had drought for 
three years. This is partially relieved, but you do not have 
roads. Your irrigation systems have broken down.
    You talk about replacing narcotics, but first, that is a 
relatively small percentage of the farmers, and second, it 
would take years to do it, and these people don't have years. 
They live in a matter of income based on months.
    We do not have the beginning of an adequate Afghan police 
effort. The German effort collapsed in 2005. We are now 
attempting to create an Afghan police effort, and the core of 
the training program is in place. But, as other witnesses 
pointed out, we will need the money that has been requested by 
the Administration, and you will not have adequate police enter 
the field until 2008. That is something very clear from all of 
the reporting coming on the scene.
    The Afghan army is a very weak early structure being rushed 
into the field and into completion. One unit I visited had 27 
percent of its authorized manning. It had been in combat for 
three years. Much of its weaponry, its equipment, was not 
operational. The U.S. advisor estimated that about one person 
in five would re-enlist at the end of the three-year term. That 
is not typical, but we should have no illusions about what is 
needed here.
    Our troop presence is winning tactically. We do not have 
enough people on the ground to deter, to control, to occupy 
space, hold, and provide the opportunity for building. In the 
most threatened provinces, the British presence is probably 
about 60 percent of what is needed, even with the Canadians. As 
Mr. Hunter pointed out, there are 37 countries involved here. 
Most of them have small contingents.
    Let me say, the last thing on earth we need are more small 
contingents of unqualified forces without proper equipment and 
support. About half of the allies we have in Afghanistan 
consume resources without serving a purpose. The Italian, 
Spanish, French, and German forces are broadly referred to in 
Afghanistan as stand-aside forces. If we are going to do 
anything, they have to be committed, and they have to have aid 
in the areas that they are in charge of, adequate personnel, 
and adequate support.
    The final point I would make is it is all very well, we all 
agree it would be nice to deny Pakistan as a sanctuary, to have 
it halt its support for the Taliban, to end the sanctuaries it 
provides for al Qaeda. Let me say the chances of that happening 
are about one in ten. We can't posture our way to victory in 
Afghanistan by pretending we can put pressure on Pakistan that 
will change its politics and its regional positions. We can't 
afford to. It is too vulnerable, and it is too delicate.
    I think this all adds up to one final message. What bothers 
me about Afghanistan is what bothers me in Iraq: We don't have 
honest metrics of what is happening. We don't measure the 
effectiveness of our programs honestly. We have slogan after 
slogan, interesting idea after interesting idea, but you don't 
know where it works. You don't know how well it is working. You 
listen to people who are outside the country without 
investigating groups that really survey and measure what is 
happening on the ground.
    We can't afford that. We can't afford what the State 
Department and the Department of Defense are doing. Part of the 
solution is oversight, and it is oversight that really asks, 
``Are these programs working?'', and does more than ask, which 
goes there on the ground and demands the data you need to know.
    Thank you.
    [The prepared statement of Dr. Cordesman can be found in 
the Appendix on page 80.]
    The Chairman. Thank you so much, Dr. Cordesman.
    As you know, under the rules and by tradition, the ranking 
member and I have unlimited time for asking questions. I will 
reserve my time until later, and I will yield five minutes to 
the gentleman from Texas, Mr. Ortiz, and then I will call on 
Mr. Hunter for his unlimited time.
    Mr. Ortiz.
    Mr. Ortiz. Thank you, Mr. Chairman. Thank you so much.
    I had a lot of questions, but most of the questions that I 
had were answered by your statements. They were very, very 
good.
    One of the things that I am bothered with is the sanctuary 
provided on the Pakistani side. I was asking one of the staff 
members how long is the border between Pakistan and 
Afghanistan. I guess it is several hundred miles, isn't it?
    Ambassador Inderfurth. It is 1,600 miles.
    Mr. Ortiz. And I know there are various mountains and rough 
terrain, but if that is the problem, would stationing some of 
our troops or a combination of NATO and our troops along the 
border, would that help? Would that antagonize the Pakistani 
government? If this is a serious problem, we need to address 
this.
    My question is, another problem we had during the Vietnam 
War is that when a lot of our soldiers came back, they were 
addicted to drugs. Is this causing another problem with our 
soldiers who are stationed there? Since the Afghanistan 
government says that it is going to hurt the farming community 
if we try to spray or get rid of the crop.
    Maybe each of you can touch on those two questions, the 
sanctuary in Afghanistan, troops along the border, and whether 
we are having problems with our soldiers coming back with 
serious addiction problems.
    Ambassador Dobbins. Let me just say a bit about the border 
and let someone else take the drug problem.
    The border is not just a physical problem. It is a 
political and social problem. The insurgency is a Pashtun 
insurgency. The Pashtuns represent 40 to 60 percent of the 
population of Afghanistan, but most Pashtuns live in Pakistan. 
Three-fifths of them live in Pakistan. They have always lived 
in Pakistan. They believe they have a hereditary right to rule 
Afghanistan. So the insurgency arises within this community.
    Now, most Pashtuns don't support the insurgents, but all 
the insurgents virtually are from that community. The border is 
unrecognized. Pakistan has never recognized that border. It is 
in the odd position of insisting that Pakistan better police a 
border that Afghanistan doesn't recognize.
    So we need programs that address the grievances, the 
aspirations of the Pashtun population on both sides of that 
border. It does little good to win the hearts and minds of the 
Pashtuns living in Afghanistan if we still face hostility on 
the part of the Pashtuns living in Pakistan, who can easily 
transit that border and sustain an insurgency indefinitely.
    So it is partially a question of a political arrangement 
between Afghanistan and Pakistan that regularizes the border. 
It is partially a problem of social and economic development 
that begins to allow Pakistan to project governance and 
development into these border regions, which historically have 
been autonomous and largely ungoverned.
    Dr. Cordesman. I have to add a point there.
    I think, frankly, when you look at the border, there is no 
way you can waste people more effectively than deploying them 
into a border area this complex, this long, where, to get any 
kind of density of coverage, you would virtually have to strip 
the rest of the country of any military presence or you would 
need a vast reinforcement. We are talking three to four 
brigades, not a minor amount.
    At the end of it, you would be in an area without roads, 
where they know the terrain, they know the ground. You couldn't 
have even Unmanned Aerial Vehicle (UAV) coverage to deal with 
it, and you would find yourself alienating the tribes in the 
border area, many of which cross the border, almost 
immediately.
    Whatever is done there has to be done on a country-wide 
basis. I have seen plans to deal with this. The Pakistani 
government claims it is going to seal the major crossings. That 
will probably be irrelevant, even if it done. All you have to 
do is look at the success of the border police in Iraq to also 
realize, if the Afghan police don't exist, if officials are 
corrupt, and we have people trying to secure a border that 
don't speak the language, have no area of expertise, and can't 
work with the tribes, even if we had the troop density and the 
technical assets, it couldn't work.
    Ambassador Inderfurth. Congressman, your question about 
drug use. We have lost 350 Americans in Afghanistan to date, 
but I do not know of any that we have lost to drugs. I do not 
think, I have not heard any reports that we have that Vietnam 
problem that you referred to.
    On the question of the security of the border, everything 
my colleagues have said I agree with.
    There is one hopeful sign. Just recently a joint 
intelligence and operations center with Afghan, Pakistan, and 
NATO forces has been opened in Kabul. The only way to deal with 
the border area that is 1,600 miles and very rugged is to have 
better intelligence and better operations capabilities. And 
hopefully this tripartite commission that has been sent up and 
this operations center could provide that.
    But we have to take practical steps to deal with it. Just 
stationing more troops there will not be the answer.
    The Chairman. The time of the gentleman has expired.
    The gentleman from California, for whatever time he may 
consume.
    Mr. Hunter. Thank you, Mr. Chairman. And following your 
decision to defer to our other members and give them more time, 
let me just ask one question, a quick question here, of the 
panel.
    If you add up the 21,000 NATO troops, of which the U.S. 
comprises approximately 11,000, and the 10,000 additional 
American troops that are in Afghanistan that are not part of 
the NATO force, it appears that we, at this point, comprise a 
majority of the U.S.-NATO forces in Afghanistan.
    Very quickly, could you gentlemen give us your best 
thoughts on whether the burden is being shared appropriately, 
whether it could be shared, whether the full range of NATO 
membership has the ability to field 10,000 or 20,000 more 
troops, which I would certainly think they should be able to 
do, and whether you think that the proportions are right, and 
what we should do if they are not right to induce the NATO 
partners to step up to the plate here?
    Dr. Cordesman. Congressman, let me suggest that one thing 
people don't do is look at the map and look where those troops 
are. The heaviest burden right now is on the British and 
Canadian forces, simply because they are the most vulnerable. 
Quite frankly, if it wasn't for the air support they are 
getting from the U.S. out of the Combined Air Operations Center 
(CAOC) and other air support, they would be in deep trouble, 
and I am not sure they would have won tactically this year.
    The German forces, the French forces, the Spanish and 
Italian forces essentially are stand-aside forces. They will 
react if they are attacked, but because they are in the north 
and the west and also because they are not properly equipped--
the Canadians have been forced to import tanks into 
Afghanistan, and many of these forces use light-armored cars--
they are not playing a role.
    You look at the amount of manpower in those totals you 
quoted, and to get these tiny contingents of 150 to 300 people 
from a wide variety of countries for symbolic purposes, you see 
where they are. They are not doing anything. The problem here 
is whose order of battle is actually committed to combat.
    Now, having worked in the NATO international staff, I have 
to say NATO has the theoretical ability to provide all the 
troops you mentioned. Will it? Can it actually deploy it with 
the helicopters, the armor, the sustainability? Are those units 
actually going to come in with the experience to fight in a 
mountainous area? Will they have the people with the language 
and area skills? Will they be interoperable and integrated into 
a NATO command?
    The truth is, you have to build on the major national 
contingents you have there now. Simply going to a NATO 
ministerial and asking for more isn't going to do much. The 
Poles will be coming in larger numbers. That is about the only 
reinforcement I know.
    The only country that really could credibly provide 
significant combat capability in addition to the ones fighting 
is France. For the British to deploy more, they have to move 
out of Iraq, which they seem to be planning to do, but the 
consequences of that I think are obvious.
    Mr. Hunter. What are the French capabilities that could be 
brought to play? And are you sure that the German capabilities 
are fully utilized at this time?
    Dr. Cordesman. They are not being utilized at all, 
Congressman. Frankly, I see no chance that Germany will play a 
significant role. Their whole posture in Washington is that 
they are doing simply splendidly by having a human resource, a 
humanitarian effort, and that is where they want to stay.
    I cite the French with this point. We are talking really 
about a large battalion, some special forces that did fight, 
but are not, I believe, committed at the moment.
    The point is, the French have significant power projection 
capability of combat troops with the political history of 
actually fighting. If you take on the German troop issue and 
the stand-aside forces of Germany, you take on the German 
political system.
    Mr. Hunter. I take it that it is your feeling, Dr. 
Cordesman, that the German political system will not make a 
decision to deploy into what you would call true combat status.
    Dr. Cordesman. To put it bluntly, they have seized the high 
moral ground, and they intend to hide there in safety.
    Ambassador Inderfurth. Congressman, of the 26 NATO members, 
only four--the U.S., the U.K., Canada and the Netherlands--are 
actually fighting in Afghanistan, so that burden is not being 
shared. Some countries probably can't, but more should.
    Also, the burden of numbers. Again, I think that we should 
go beyond extending the tour of duty of the tenth Mountain 
Division in Afghanistan, the four months. We should actually 
bring extra troops, but I think that the other countries need 
to step up, and with troops that have capability.
    I think what Undersecretary of State Nicholas Burns said at 
a recent briefing on the package that was offered last week on 
Afghanistan is accurate. He said NATO needs to do more in the 
way of troops and the way of money and the way of ridding 
itself of the restrictions on the uses of military forces.
    So I hope that when Secretary Gates goes to the NATO 
ministerial meeting in Seville on February 8th and 9th that he 
will bring that message. We did not do very well in making that 
case at the last NATO meeting in Riga.
    Mr. Hunter. Thank you, Mr. Chairman.
    The Chairman. Thank you, Mr. Hunter.
    Mr. Meehan, five minutes.
    Mr. Meehan. Thank you, Mr. Chairman.
    Thank you to all of the members of the panel for being here 
with us this morning.
    I find it interesting that all of you cite almost identical 
statistics in your written testimony. You all point to the 
drastic increase in the number of suicide attacks, the number 
of improvised explosive devices (IEDs), and the number of armed 
attacks from 2006 to 2007. And most of you have alluded to the 
expected spring offensive by the Taliban, which is expected to 
continue and escalate from the violence we saw in 2006.
    All of you advocate for an increased troop presence in 
Afghanistan. Despite repeated protests by the Department of 
Defense that the escalation of our force in Iraq will not 
affect the situation in Afghanistan, I just find it hard to 
believe. There is no doubt to me that our military has been 
stretched to the breaking point, so I have a hard time 
believing that even the smallest tug in one direction won't 
affect our capabilities somewhere else along the line.
    Ambassador Dobbins and Professor Cordesman, as the two 
people on the panel who might best be able to address this, do 
you believe that any troop increase in Iraq will have a 
detrimental effect on the prospects of being able to get more 
troops for Afghanistan?
    Dr. Cordesman. Looking at what is going to happen, rotating 
the brigade for the tenth Mountain, buys you at most four 
months, and it isn't really a brigade. It is about a battalion-
and-a-half you are plussing-up.
    Now, the units we are going to send into Baghdad--and I 
think there has been some good unclassified reporting into 
this, the plus-up--cannot be properly equipped with up-armored 
Humvees or the vehicles they need. Yes, the force structure is 
under strain, but I think we need to be careful about this, 
because the kind of force you need in Baghdad and Iraq is not 
necessarily the kind of lighter force you need in Afghanistan.
    But I think all of us who look at this realize there is 
going to be a growing problem because we have a major backlog 
of heavy-equipment repairs. We haven't reset combat units, 
active or reserve. We have over-deployed the men and women in 
the Army and the Marine Corps. And I think there are 
preliminary indications that there is going to be a really 
serious problem with retention on junior officers and non-
commissioned officers (NCOs) beginning this year, although 
nobody can predict that. This is a force structure under 
strain.
    Mr. Meehan. Ambassador.
    Ambassador Dobbins. I would agree with that. We are 
obviously scraping the bottom of the barrel. These troops are 
limited. They are fungible. If they go one place, they can't go 
to the other place. Our capacity to respond in Afghanistan is, 
as a result, limited.
    I also agree with Tony that flooding Afghanistan with 
American troops probably isn't the right response, although I 
support the increase that is being proposed. We need to make 
this a more multinational operation and a more Afghan 
operation.
    As I have suggested, we need to pay more attention to, if 
not eliminating, the sanctuary and the threat from Pakistan, at 
least beginning to ameliorate it significantly.
    Mr. Meehan. Mr. Jalali, I am worried about the current 
situation, as well, along the Pakistan border. It seems to me 
the entire reason we went to war in 2001 was to destroy al 
Qaeda safe havens so that they could no longer project terror 
around the world. Despite all of our efforts, and the efforts 
of our allies from Afghanistan and around the world, it seems, 
as has been discussed here this morning, that we are on the 
verge of creating another such safe haven.
    I don't pretend to know where bin Laden is, but he is 
probably somewhere along the border; I don't know which side. 
As you certainly know, the Pakistani government has entered 
into an agreement with the leaders of the region that gives al 
Qaeda an amount of security that they haven't had since October 
of 2001.
    In your written testimony, you lay out some suggestions 
about how to get rid of this safe haven. Are there more drastic 
measures required basically that we destroy one base of terror 
and now have another one right next-door?
    Mr. Jalali. Congressman, it is a very complex situation. 
Only sealing the border is not going to solve the problem 
because that is a tactical impact.
    However, going to the source of the problem, I disagree 
with the notion that it is a Pashtun problem on both sides of 
the border, because Pashtuns are traditionally very secular and 
moderate people. Only they were radicalized during the war in 
the 1980's. So therefore, it was manipulated.
    Now it can be by following a regional policy to address all 
questions in the region, not one. I think development on both 
sides of the border, economic development, and also integration 
of the Federally Administrated Tribal Area (FATA) in the 
Pakistani administration is a question to be addressed. 
Otherwise, these FATA are outside the Pakistani control, and 
then since the radicalization of Pashtuns, for other war 
purposes, for other policy purposes, actually was a source of 
it.
    So the source is not only sealing the border, or the cross-
border attack. The sources, they are sponsoring in accepting 
and tolerating the presence of radical forces who can use the 
territory of Pakistan for transnational terrorist activity.
    The Chairman. Mr. McHugh, five minutes.
    Mr. McHugh. Thank you, Mr. Chairman.
    Gentlemen, welcome.
    As someone who has the honor of representing Fort Drum, the 
home of the tenth Mountain Division, I understand the 
chairman's point about this being called the forgotten war, but 
it sure hasn't been forgotten there. And the families that 
learned of this just a few days ago and those soldiers who 
actually redeployed and had to get back on the plane and go 
back to Afghanistan understand the challenge and the 
importance. And I know they are all in our hearts and thoughts 
and prayers.
    I don't know if we have an Iraq problem when it comes to 
Afghanistan. I would argue we certainly have an end-strength 
problem. I have been arguing that for a number of years now. I 
am pleased that Secretary Gates has decided that that is a 
challenge that needs to be met. Chairman Hunter, the Personnel 
Subcommittee and I will sit down this afternoon in a hearing 
and hear some more about end-strength challenges. And I think 
that is an important part of it.
    But borders and the challenge that arise out of those 
borders almost become irrelevant if there is a reason to be 
concerned about the border. And the sanctuaries, it seems to me 
to be the issue here, not so much the border issue. And Mr. 
Jalali was making some comments, and I think helpful ones, 
about how you attack the question of sanctuary and the support 
that the Taliban and al Qaeda are finding, particularly in 
north Waziristan.
    And I would be interested if perhaps our other witnesses 
could tell us or suggest to us some ways in which we can 
approach that, whether it is more pressure on Musharraf. I 
don't know if there is a national leader in the world who has 
had more attempts on his life than him. Do we facilitate some 
more, or other ways? Any suggestions as to how we get to the 
root cause of that sanctuary would be very helpful.
    Ambassador Dobbins. Well, Congressman, I would suggest four 
steps with respect to Pakistan.
    First, I think the United States should intensify quiet 
efforts to encourage both India and Pakistan to resolve the 
differences over Kashmir. It is that issue, it is that dispute 
that is at the real root of radicalism in Pakistani society and 
of the Pakistani government's longstanding support for 
terrorism as an instrument of national policy. And resolving 
that particular dispute will go a long way toward de-
radicalizing Pakistani society.
    Second, our assistance programs need to address the 
economic and social needs of the Pashtun populations on both 
sides of the border.
    Third, we need to encourage both Afghan and Pakistani 
governments to establish an agreed border regime and to 
legitimize the current frontier and to recognize it.
    And finally, the U.S. should encourage Pakistan to move 
back toward civilian rule via free elections. Fundamentalist 
parties have never fared well in such elections in Pakistan, 
and they are unlikely to do so in the future.
    It seems ironic that the U.S. has pushed for 
democratization in Iraq, Palestine, and Lebanon, all places 
where the result was likely to intensify sectarian conflict, 
but has largely failed to do so in Pakistan, where the opposite 
result is more likely.
    Dr. Cordesman. I think, Congressman, let me say that I 
would agree with what Ambassador Dobbins has said, but then my 
qualification would be the chances of success of some of these 
initiatives are maybe one in five, and the time to get them 
done is probably two to three years. And that is part of our 
problem.
    The other difficulty is, how do you define a sanctuary? It 
can be a madrassa. It can be a refugee camp. It can be an area 
where they simply lower the profile of what they are doing, 
which now, often, is having Taliban people wearing Taliban 
insignia in Pakistan, as it is in parts of Afghanistan, and 
still be very active.
    And I think we also need to be very careful about the 
support they are getting, because, looking at public opinion 
polls, it isn't just a sanctuary in Pakistan that counts. It is 
cross-border movements by groups who support the Taliban. 
According to an ABC-BBC poll done in November, if you look at 
the Paktika and Wardak provinces, support for the Taliban among 
the people polled was around 67 percent, some of it limited. 
When it came down to Helmand province, you were talking only 
about 34 percent.
    But we should not simply say these people are an alien 
group. And they are only one of three of the Islamist groups 
operating there, all of which have sanctuary in Pakistan, not 
just the Taliban.
    Mr. Jalali. Let me add to this, Congressman, that although 
in Afghanistan there are people who believe that they are 
shortchanged from development and therefore they would somehow 
support the Taliban.
    But the external basis of the assumption, you have economic 
decline in the north and the west, but you don't see the 
problems with the Taliban there. So therefore, unless you deal 
with the external sources of this transnational terrorism or 
insurgency, only resolving internal problems will not to the 
job.
    Therefore, as I said, both external and internal sources of 
this insurgency ought to be addressed at the same time.
    Mr. McHugh. Thank you, Mr. Chairman.
    If you have written comments, Mr. Ambassador, I would 
appreciate those. But I think the chairman was going to cut off 
here.
    Mr. Reyes [presiding]. If you can take, like, 30 seconds, I 
will give you 30 seconds.
    Mr. McHugh. Oh, we have a new regime here. Okay.
    Ambassador Inderfurth. Pakistan is in something of a state 
of denial about officially recognizing that the Taliban are 
operating out of their territory. And we have to deal with 
that.
    But we should also not be in denial ourselves of the fact 
that Pakistan is making an effort in those northern areas that 
they never get involved in. The writ of the government does not 
extend to the tribal areas. They have got 80,000 troops there. 
They have taken several hundred casualties dealing with this 
problem.
    So while we press them, let's also recognize that an effort 
is being made there. They need to do more. We need to do more.
    Mr. McHugh. Thank you very much.
    Thank you, Mr. Chairman.
    Mr. Reyes. I thank the gentleman.
    Gentlemen, thank you for being here. I will take my time 
now.
    One of the things that surprised me about your testimony 
here this morning and the written testimony, unless I missed 
it, because I, as the chairman said, was on the trip over the 
weekend to the region, which included Afghanistan and Pakistan. 
We spent a total of two and a half-hours-plus with President 
Karzai and about an hour-and-a-half with President Musharraf.
    And one of the issues you did not address is this kind of 
public feud that is going on between the two presidents that 
does not help in trying to find a solution or solutions to the 
issue of the cross-border challenge that we face.
    So I would ask you to comment on that, as well as the fact 
that while we are doing a lot of good things, which includes 
our troops in there, there are some challenges that we frankly 
are not doing a good job at. And I will mention just one, and I 
would ask you to comment on that as well.
    If we are going to be able to transition them from growing 
poppies for the drug trade, which, as you all observed, makes 
it possible to get funding for the Taliban and the insurgency, 
we are going to have to find other crops for the farmers to 
work.
    And in the whole country, we have got six people from the 
United States Department of Agriculture (USDA) assigned there. 
To me, and I mentioned this to our ambassador, that doesn't 
make sense to me.
    So if you gentlemen can comment on those two points, the 
feud and also the poor job that we are doing in obvious areas 
that we need to focus on.
    Ambassador Dobbins. Let me say a word about the feud.
    I think it is unfortunate that the burden of highlighting 
the role of Pakistani territory and Pakistani residents in the 
Afghan civil war falls largely on Karzai and his government. 
And that is in part because our government has been largely 
silent on it, which puts the burden on the Afghan officials to 
highlight this problem, and that exacerbates a poor 
relationship in unhelpful ways.
    It is a bit like it is the good-cop-bad-cop. We are the 
good cop and they are the bad cop vis-a-vis Pakistan. But that 
is really the wrong balance because they are weak. Afghanistan 
is weak. It cannot sustain a confrontation with the much 
larger, more powerful Pakistan.
    It would be a far better relationship if we were being more 
vocal and critical and the Afghans could be quiet and try to 
improve their relationship with their powerful neighbor. But as 
long as we are not saying something about this, I think Karzai 
feels its incumbent on him to say something about it.
    Mr. Reyes. Just to make sure I correct the record, we were, 
over the weekend, very vocal to both presidents that we have to 
work toward finding a solution to this one issue, because it 
undermines our ability to work cooperatively in that effort.
    Mr. Ambassador.
    Ambassador Inderfurth. Well, I would like to, if I could, 
respond to your question about the number of USDA agents in 
Afghanistan. I could not agree with you more. And I am sorry 
that Congressman Hunter has left, because I wanted to address 
his question about the substituting orchards for poppies.
    ``Alternative livelihood'' is the term of art used here, to 
find some ways to help the rural, poor farmers of Afghanistan 
have a livelihood. And right now poppy is the best way to 
accomplish that.
    But alternative livelihood and incentives and assistance to 
create that is a key element of tackling the drug problem. I 
mean, that has to be multi-pronged, as I said. It is law 
enforcement. It is going after the drug lords. I think it is 
getting U.S. and NATO troops more involved in that fight. But 
it is also about providing an alternative to the farmers for 
their poppy fields.
    It can be done. Unfortunately, I don't think we are putting 
enough money into it. The recent announcement by the Bush 
Administration that it was increasing economic assistance to 
Afghanistan by two billion dollars over the next two years, if 
my calculations are correct, that is about what we have been 
doing on a yearly basis, about one billion dollars a year. That 
is not an increase. And I think we need to be doing more in 
that area.
    I also wish that Congressman Hunter knew that in California 
there is a group called Seeds of Peace that is taking out 
landmines and putting in vines and orchards and all of that to 
try to deal with that. He should be aware that there are people 
out there trying to do exactly what he suggested in his 
remarks.
    Dr. Cordesman. Congressman, I wonder if I might speak to 
that.
    Mr. Reyes. If you can, very quickly.
    Dr. Cordesman. All right. There was a World Bank study done 
in November which should be a warning to every member of this 
committee.
    I think a lot of this alternative-crop business is 
nonsense, just as eradication is. You are dealing with 
corruption. You are dealing with insecurity in many of these 
areas where you cannot send advisors out into the field. You 
are talking to people who are desperate simply to survive from 
month to month, who cannot count on government or aid programs 
to work them through a year in the field.
    And if you look at a map of where the crops are grown and 
where you have to go and how many advisors have to be there, 
you need a plan, not a noble intention. These groups don't have 
plans. They just have a nice idea.
    Mr. Reyes. Thank you.
    Mr. Wilson.
    Mr. Wilson. Thank you, Mr. Chairman.
    And thank you, Mr. Chairman, for your taking the tour that 
you just identified, of Kuwait and Baghdad and Islamabad and to 
Germany. We certainly appreciate you going, and I look forward 
to hearing a report.
    I would like to thank all of you for being here today. It 
has been really interesting. I have visited Afghanistan twice. 
I had the privilege of meeting President Karzai when he was 
here. I have met members of the parliament here and also in 
Kabul. It is really inspiring to me, the efforts that I see 
being made.
    Additionally, I have a personal interest. The 218th 
Mechanized Infantry Brigade of the South Carolina Army National 
Guard is being mobilized, Professor Jalali, to go to 
Afghanistan to help train the Afghan army. This is the largest 
deployment of members of the South Carolina Army National Guard 
since World War II. I am particularly proud of the unit because 
I was a member of it for 25 years.
    My question to you--and what a background you have, as the 
interior minister, as a former officer in the Afghan army, as a 
member, apparently, of the mujahedeen. Wow, what a background 
you have.
    As I think of my friends and neighbors who are on their way 
to Afghanistan to train the Afghan army, what words do you have 
to these guard members as to what should they expect and what 
can we do to truly help Afghanistan?
    Mr. Jalali. Congressman, I think the problems of 
Afghanistan are very complex. You cannot focus on only one area 
and expect that to change the situation.
    Building the national army is a major project, and I think 
it will help. However, in Afghanistan, you have to streamline 
all the development effects in other areas. If you do not have 
a good rule-of-law system in Afghanistan, only army is not 
going to help. I think we need to have an integrated approach 
in all areas.
    Earlier, we discussed the drug problems. Drug problems are 
also complex, unless it is mainstream in the governance, 
security, development, and alternatives. Alternative livelihood 
should be a goal, not a means. Therefore, unless we streamline 
it in all these areas, it is not going to solve.
    The army is a major impact. I think so far, Afghanistan 
National Army has done remarkable things. I think it is one 
area in the security-sector reform that has a very shining past 
record.
    However, it is not only. I think with the army, if you do 
not build a good police force, it is not going to help. In many 
areas in Afghanistan, police are the front line of fighting the 
insurgents. It is on the border, the border police, on the 
highways, the streets of the major cities, and the other 
security force. They take the heat of the insurgent's attack 
first. In the past five years, I think police lost more men 
than army, than the ISAF and the coalition forces.
    So therefore, you have to build a capacity, not only one 
element. I think the security capacity will come through 
development of the army, the police, the justice sector, and 
also other supporting elements that make these forces operate 
in a very effective way.
    Mr. Wilson. And the information we have as to the army 
itself, there are currently 36,000 trained and equipped, and 
the goal is 70,000 in the next 3 years?
    Mr. Jalali. Yes, 36,000 now.
    However, the problems are not always in the numbers, 
whether it is foreign troops or--what is the capacity of it?
    I think the equipment they have is not sufficient. Some of 
the equipment is from the old Soviet arsenal. And one officer 
told me that, ``During the jihad I had better weapons than now 
in a battalion.''
    So therefore, they need equipment and also mobility. They 
do not have indigenous air force or air mobility power.
    I think unless we provide this equipment and this capacity 
to our army, it will be fine, however it will not be as 
effective. It will not be used as an exit strategy for the 
international forces.
    Mr. Wilson. Well, again, I appreciate your encouraging 
that.
    A final point: When I was visiting, I was very impressed by 
the provincial reconstruction teams (PRT). I visited one which 
was joint U.S.-Korean. I visited, another time, forward-
operating Base Salerno. Again, extraordinary civil action 
projects.
    And I yield----
    Mr. Jalali. But still, if I may, the PRTs are not standard, 
not the same. It is also like the forces that different 
countries provide. They have different instructions. If you use 
the Coca-Cola language, and we have PRTs-Classic and PRTs-Lite. 
[Laughter.]
    Mr. Wilson. Thank you very much.
    Thank you, Mr. Chairman.
    Mr. Reyes. Mr. Smith.
    Mr. Smith. Thank you, Mr. Chairman.
    Actually, I just had one question. I will direct it at 
Ambassador Dobbins, but if others of you want to add to that, 
it would be fine.
    You had mentioned the problem of Pakistan in your opening 
remarks. And I apologize, I had to duck out for a meeting. You 
may well have addressed some of these issues.
    I guess my simple question is, I agree completely with your 
analysis. What do we do about it? What do we do about Pakistan? 
How do we deal with the fact that al Qaeda has carved out what 
amounts to a safe haven, ironically, in the middle of what is 
supposedly one of our allies?
    I am deeply concerned with the training bases that are 
going on there, that basically it is sort of a smaller, less 
comprehensive version of what they had in Afghanistan prior to 
9/11.
    We are doing what we can with Afghanistan, getting 
cooperation there, but certainly not getting it from the 
Pakistanis to the degree that we would like. So I am curious 
what your policy outlook is, in terms of how we approach it.
    Ambassador Dobbins. Well, I think, first of all, we have to 
recognize the centrality of the Pakistani challenge to the 
whole global effort against terrorism and not allow ourselves 
again to become distracted by secondary challenges.
    Second, I think we need to raise the profile of the 
Pakistan issue internationally. That doesn't mean mounting a 
campaign to ostracize or penalize Pakistan. I think Pakistan 
needs both firm external pressures, but a good deal of help in 
solving its internal problems.
    If we were spending one-tenth of what we spend every month 
in Iraq on the war, on improving the Pakistani educational 
system, we would probably be a lot further along in reducing 
support for international terrorism, and particularly for 
cross-border activity in Afghanistan.
    So partially, it is raising the profile of the issue, 
consulting in NATO and in other forums with our allies, trying 
to get a concerted action plan, largely consisting of 
incentives, of carrots rather than sticks, to promote 
transformations in Pakistani society, to move away from the 
fundamentalism and the radicalism and the support for terrorism 
that have characterized its official policy over the last 
several decades.
    Mr. Smith. Excuse me for interrupting. What is exactly the 
split in the population?
    There is no question that there is a great deal of violent 
extremism in Pakistan on both sides of the country and all 
points in between. On the other hand, it is not necessarily a 
majority of the population, and the assumption always is that 
if we put too much pressure on Musharraf and he falls, that he 
will be replaced by a radical Islamic state.
    Is that really the case? Is the population more divided on 
that?
    Ambassador Dobbins. I think it is a risk that one can't 
entirely ignore, but polling data in prior elections suggests 
that the radical and Islamist parties do not do particularly 
well, and that Pakistan, in contrast to some of the other 
states where we pushed democratization, is one where a move 
back toward democratic rule would probably also be a move back 
toward more nonsectarian and moderate policies.
    I will ask Ambassador Inderfurth, who was responsible for 
relations with Pakistan, to add a bit of depth to that answer.
    Ambassador Inderfurth. I am not sure I can add depth, but I 
could add to it.
    I think, in terms of Pakistan, my written testimony has two 
suggestions here to deal with the fundamental issues.
    One has already been referred to, and it is that we need to 
urge the two parties to agree to their border, the Durand line 
of 1893. Afghanistan does not accept this. Pakistan says, how 
can we patrol a border that is not even recognized? There are 
problems for President Karzai to do this, but I think the time 
has passed to get that border recognized, and I think that 
would be an important step.
    Second, we need to urge Pakistan to try to integrate these 
tribal areas into the political mainstream. As I said earlier, 
the writ of the government has not extended there in the past. 
These are economically and politically backward. They have been 
a breeding ground area for the Taliban and a sanctuary for al 
Qaeda.
    What we can do about this is to urge it and also to provide 
some funding, along with the World Bank and others, to assist 
in that effort to integrate these tribal areas into the 
Pakistan mainstream.
    These are longer-term issues, but I think that they would 
go a long way.
    Mr. Smith. Thank you very much.
    The Chairman [presiding]. Thank you very much.
    Dr. Gingrey.
    Dr. Gingrey. Thank you, Mr. Chairman.
    I have two questions.
    First, Ambassador Inderfurth, either in your remarks or 
your written testimony, you stated that we probably should deal 
differently with Iranian activity within Afghanistan than we 
plan to do now in Iraq, realizing that the president has said 
in Iraq we are going to end the policy of catch-and-release in 
regard to Iranian agents that are creating havoc in Iraq.
    I want you to explain that to us and why you feel that we 
should treat them differently, accepting the old adage that the 
enemy of my enemy is a friend, and that whatever activity Iran 
is engaged in in western Afghanistan, it would be in their 
interest, I would think, to continue to create havoc in both 
countries, Iraq and Afghanistan, to divert our attention away, 
to bog us down, so that they can continue to progress with 
their nuclear program.
    So, if you could answer that, I would appreciate it.
    And then for my second question for any and all, if the 
time will permit: The minority leader, John Boehner, 
recommended to Ms. Pelosi in a recent letter, to Speaker 
Pelosi, that the formation of a bipartisan oversight 
commission, with Democrat and Republican members, obviously 
chaired by the Democratic majority, to look at the new way 
forward in Iraq and to have the president report to this 
bipartisan commission every 30 days on a series of benchmarks 
he also very specifically outlined.
    I would like to know your opinion of that recommendation, 
particularly as it pertains to this new way forward or, as one 
of you mentioned, a mid-course adjustment in Afghanistan.
    Certainly, I believe that we have a better opportunity, not 
just on this committee but in the House and in the Congress, to 
have bipartisan support of a new way forward or a mid-course 
correction in Afghanistan, and this type of commission 
recommended by Minority Leader Boehner I think would be a good 
thing. And I would like to know your opinion on that.
    So those two questions. Thank you.
    Ambassador Inderfurth. Congressman, thank you.
    I am not surprised that there wouldn't be a follow-up to 
what I said about opening up an Afghan front against Iran 
there. As I said, Iran has interests in Afghanistan. It has 
interests particularly in the western part of the country, 
among the Shiite-Hazara population, longstanding cultural and 
economic ties.
    I also said that President Karzai would not find it 
helpful, I think, to have us inject ourselves in doing what The 
Washington Post reported of preparing aggressive moves to 
undermine Iranian interests among the Shiites. He is trying to 
stabilize and normalize his relations with his western 
neighbor.
    But let me add a point that I did not say in my oral 
testimony, which is I think that opening an Afghan front 
against Iran does not appear at this point either appropriate 
or necessary.
    I say that because, as the Iraq Study Group pointed out, 
during the Taliban era, the United States and Iran cooperated 
in Afghanistan. The cooperation included strong opposition to 
the Taliban in the U.N. 6-Plus-2 forum, which I was a part of, 
quiet American support to Iran for its supply of military 
assistance to Ahmad Shah Massoud of the Northern Alliance.
    Also, a joint recognition by our two countries of the need 
to combat the rising threat of drugs. Iran has been a victim of 
that and has taken strong measures to go after the drug 
traffickers. The two countries collaborated during the post-
Taliban Bonn conference, something that Ambassador Dobbins can 
speak to. And more recently, Iran's involvement in Afghanistan 
has been described as one U.S. official as somewhere between 
helpful and benign.
    So I don't think the case is there for us to take what we 
have as legitimate concerns about Iran's behavior and 
activities in Iraq, and transfer it to another front on 
Afghanistan.
    Dr. Cordesman. Congressman, I wonder if I could pick up 
your second point. I think it would be absolutely vital to have 
a bipartisan effort to get useful measures of reporting, ones 
where the Congress could actually see what was happening. And, 
to be honest, it would force people who are generating these 
indicators to provide numbers that are meaningful.
    For example, we just used a figure for trained and equipped 
people in the Afghan army. That isn't the number of people 
there. That is the number of people trained and equipped. Out 
of the 300,000 people in Iraq that are supposedly trained and 
equipped, maybe about 65 percent are actually left.
    We have aid reports which are the number of projects 
started or the money is spent, but no reporting on the number 
accomplished.
    If we had real reporting, we might have real solutions.
    The Chairman. Thank you very much.
    Loretta Sanchez.
    Ms. Sanchez. Thank you, Mr. Chairman.
    Gentlemen, we have gone over some of these things already, 
but it seems to me that the lessons that we have learned from 
South America, in particular, with respect to drug eradication 
and counter-drug strategy, includes four pieces: the 
implementation of a long-term plan for training, equipping and 
deploying national and border police and counter-narcotics, to 
disrupt the higher-value targets like traffickers and 
processors; second, to stimulate economic growth so that we 
decrease the influence that the drug trafficking has on the 
total economy. That requires infrastructure development and 
economic aid.
    Third, we need to develop an agricultural strategy that 
would link the farmers to domestic and to international markets 
for their products, or what one of you said, alternative 
livelihood. And four, foster political development with respect 
to the institutions, put in judiciary transparency, work on 
disarmament, integration of the militia.
    In 2004, Karzai called for a jihad against the drug trade, 
but what we have seen lately is, of course, that opium has 
become really the economy of this arena.
    So I have several questions, and any of you may answer 
since you all seem to be pretty up-to-speed on a lot of what is 
going on over there.
    Where is our counter-drug strategy failing? In each of the 
above headings, the four things that I mentioned, how do we 
improve in those areas?
    Third, do we need more military assets to do this counter-
drug interdiction and eradication and what would that look 
like, in your opinion?
    And fourth, what evidence, if any, is there between a 
Taliban or an al Qaeda link involving the drug trade or 
trafficking going on?
    Dr. Cordesman. Let me, if I may, I really think the World 
Bank report done in November is a warning that this is not 
Latin America. When you look at where the areas are, where the 
drug trade is taking place, yes, it is one-third of the Gross 
Domestic Product (GDP) by its own calculations. It also is 
about five percent of the farming area, according to the World 
Bank and other studies. A lot of those are in mixed areas, not 
simply in the Taliban. Many are in the north and the west, 
where basically no one as yet is trying more than eradication.
    We don't have the resources to have aid programs out into 
the field, and most of those are defined as high-risk areas, so 
you would need to have a civil-military effort to make it work. 
You also see, because of the problems in Afghanistan, a very 
sharp rise in popular support for drug growing just over the 
last year, because people need this.
    My caution here is what we have now is an eradication 
strategy which virtually everyone in-country agrees is making 
the people involved hostile, without really affecting the crop. 
It is just shifting it around. Substitution requires honest 
people in the field and time and money to actually go to 
individual farmers. From our training program, the training 
program for the Afghan national police will begin creation of 
effective counter-narcotics people for the police in the course 
of next year's training syllabus.
    So there is very little to build on locally, and these are 
not my estimates. These come directly from the people who act 
as the advisory team for the ANP.
    Mr. Jalali. In my dealings, Congresswoman, with 
Afghanistan, I find that the drug production and trafficking is 
a low-risk activity in a high-risk environment. You have to 
change the situation, reverse it, make it a high-risk activity 
in a low-risk environment, low-risk both in terms of law 
enforcement and also in economic opportunities for people.
    The current strategy, which was depicted in the Afghanistan 
compact actually has four elements. That is, law enforcement 
going after traffickers who take most of the revenues from the 
drug trafficking; helping farmers, and at the same time 
institution building infrastructure, to make the alternative 
livelihood a goal, not a means.
    And therefore, this is the kind of strategy that is not 
working because not enough investment is made in all these 
areas. As I said before, you have to mainstream in all these 
areas.
    The Chairman. I thank the gentleman.
    Mr. Franks.
    Mr. Franks. Thank you, Mr. Chairman.
    Thank you, gentlemen, for being here.
    As I recite the rationale for us going into Afghanistan in 
the first place, it was simply because they had become a base 
for terrorist activity. They harbored al Qaeda. In a sense, I 
think it is important for us to step back for a moment and ask 
ourselves why those things happened.
    One of the principal goals we had going into Afghanistan, 
especially as we developed a success there, at least to 
overthrow the Taliban, was to leave a constitutional religious 
freedom context there that could create an internecine pressure 
against religious extremism, the Islamist groups that seem to 
be at the heart of a lot of the challenges that we face in 
Afghanistan and many other parts of the world related to 
terrorism.
    Right now, the Afghan constitution doesn't really fully 
protect religious freedom. Have we looked at that carefully? 
Have we done enough?
    In the opinion of anyone who would like to respond, do you 
think in terms of being able to create the will and the 
capacity, long-term, for free governments to ever exist, if 
there is any hope for it, that that shouldn't be a pretty 
significant emphasis for us?
    Ambassador Dobbins. I think that the Afghan constitution, 
considering our agenda within Afghan society in the aftermath 
of a civil war, is a fairly liberal and progressive document, 
albeit one that does establish an Islamic state. The president 
has also recently replaced members of the supreme court with a 
more nonsectarian set of judges.
    So at this point, I would not be particularly alarmed about 
the degree to which the Afghan state apparatus is subject to 
extremist or fundamentalist pressures. I think we have some a 
long way there.
    Ambassador Inderfurth. Congressman, could I call your 
attention to the statement that I appended to my statement, the 
one prepared by the Afghan government for the meeting today in 
Berlin on challenges and the way ahead. I just want to read one 
line in here. It says their task, this is the Afghan speaking, 
is to build a pluralist Islamic state governed by the rule of 
law in which all Afghans have the opportunity to live in peace, 
fulfill their economic potential, and participate politically 
as full citizens.
    We could write those words ourselves. I mean, that is what 
we would like to see. That is what they want to see.
    Mr. Franks. It is tough to make it happen.
    Ambassador Inderfurth. But I think that President Karzai 
and those that I know in the Afghan government and others are 
committed to achieving that. But it will only be achieved if we 
stick with them during this difficult time.
    Mr. Franks. I think that is a wise observation.
    Mr. Chairman, my red light has been on since I began, so 
let me just ask----
    The Chairman. The clock is going the other way, so we will 
call you. Five minutes.
    Mr. Franks. Okay, I appreciate it. [Laughter.]
    Every panel member here in some way or another has alluded 
to the importance of not only trying to stabilize Iraq, but 
preventing it from coming back as a base of operations for 
terrorism. That is the great challenge that we have.
    Forgive me for any of those that I might be 
mischaracterizing here, but it seemed like everyone on the 
panel has in some manner emphasized stabilizing the existing 
government, suppressing the insurgency, increasing security, 
even having increased troops on the part of the United States 
to do those things and to try to maintain as much as possible, 
as much as it is possible in that area, a free society that can 
create hope for its citizens.
    It seems to me that is almost exactly what some of us have 
been saying. It is not a challenge. Hopefully when you think 
about this, a lot of us have been saying the same thing about 
Iraq, that the idea of letting Iraq become a major base of 
terrorist operations, with the wealth of the Nation and the 
freedom that that could afford them, could threaten the entire 
human family.
    If these things of troop increases and suppressing 
insurgency, increasing the security there, and doing what we 
can to stand up a government that can protect itself, were 
important in Afghanistan, why is that not important in Iraq? If 
I could, I would like to ask you to do that.
    But, Ambassador Inderfurth, could you go first and then 
this gentleman here, Ambassador Dobbins?
    Ambassador Inderfurth. The situation in the two countries, 
I think, are similar to the extent that we have moved to bring 
our influence to bear in both.
    The way we went to war in Afghanistan was I think quite 
different than the way we went to war in Iraq. In Afghanistan, 
we had the full support of the international community. We have 
been working with the United Nations. NATO was a part of this 
effort.
    Fundamentally, the Afghan people have never seen us as 
occupiers. We have been seen as those coming to assist them. 
They wish that we had been there many years before. In fact, 
when we had departed in 1989 after the Soviets withdrew and we 
departed, they feel that that led to what we later saw with the 
Taliban and al Qaeda and the rest basically taking the country.
    I think the circumstances are different between the two. I 
think the one thing that I said in my comment was, this can be 
a model for bipartisanship. There are so many differences over 
Iraq, but on Afghanistan, I think we all agree. That is a place 
we need to be.
    The Chairman. Ms. Davis.
    Ms. Davis of California. Thank you, Mr. Chairman.
    And thank you to all of you for being here. I certainly 
appreciate your testimony today.
    Ambassador, you had just mentioned that the focus on 
Afghanistan can certainly be a bipartisan effort. I wanted just 
to say, and I don't have the quote here with me today, but, Mr. 
Chairman, just sitting here realizing that, about, I think it 
was last week, we heard some testimony that could suggest that, 
in fact, Iraq was not necessarily a distraction; that all the 
effort that we have put into Afghanistan, there were some 
restraints in having done a far more intensive job there, 
whether it was the terrain, whether it was Pakistan, whatever 
that might be.
    There is still a lot of discussion about that. I don't know 
whether you want to comment on that particularly, but I think 
your testimony has perhaps signified some different direction 
or different steps that could have been taken there, certainly 
at the time that we chose to go into Iraq.
    Is that something that you wanted to comment on directly, 
Ambassador?
    Ambassador Inderfurth. I am not exactly sure of the point. 
If you could?
    Ms. Davis of California. I think there was a sense that 
there were obstacles to have gone further in that mission in 
Afghanistan at the time. There is a contrast in the testimony 
today. I will go back and take a look at that, but I wasn't 
sure if you had had an opportunity to be aware of any of that 
testimony or wanted to comment on that.
    Ambassador Inderfurth. I think that we have all referred to 
the fact that although the decision taken to go to war in 
Afghanistan after 9/11 was absolutely supported by strong 
bipartisan support, that since that time we have witnessed a 
great degree of, as I put it from the 9/11 Commission, half-
measures, a light footprint. We now have the opportunity to try 
to rectify that and have full measures, as opposed to half 
measures.
    I think one contributing factor to that, and I mentioned it 
in my oral statement as well as in my written statement, is 
what was the diversion of our resources, time and attention, 
military and financial, from Afghanistan to Iraq. I think that 
all, including the Iraq Study Group, called attention to the 
fact that we simply could not do what we are doing in 
Afghanistan that we needed to do, because of the diversion of 
resources to Iraq.
    Indeed, that report of the Iraq Study Group suggested that 
as we begin, which they recommended, bringing out our combat 
forces from Iraq in 2008, that we do see Afghanistan as a place 
to place some of those. So I trust that that addresses your 
question.
    Ms. Davis of California. Yes, I appreciate that.
    Let me just turn really quickly to a quote by Barnett Rubin 
in Foreign Affairs. He is referencing Afghanistan and says how 
a country that needs decentralized governance to provide 
services to its scattered and ethnically diverse population has 
one of the world's most centralized governments.
    Could you comment on how that is a factor in whether or not 
our efforts there are going to be successful? And whether or 
not we are understanding, perhaps, that reality and could be 
doing some things differently to address it?
    Ambassador Inderfurth. As a former member and official of 
that government, perhaps Minister Jalali can address it.
    Mr. Jalali. Traditionally, Afghanistan had a weak central 
government and a decentralization of power. But that was not 
because people wanted that. The geography, the culture, the 
power of the central government actually created that kind of 
situation.
    However, it is a strong nation but weak state. After this 
war, the situation has changed. This was the will of the people 
of Afghanistan as expressed in the words of the constitution, 
the constitution of the loya jirgah. They wanted a strong 
central government to reunite the country, to undermine the 
regional power-holders who actually victimized people during 
the war. So therefore, this was I think the overwhelming 
majority of people during the constitution loya jirgah wanting 
a strong central government.
    Of course, when the country has stabilized in the future 
and the people want to decentralize it, then that will be a 
different issue. However, even today I think there is a need 
for a balance between a strong central government and 
delegation of some development and financial power to the 
provinces.
    Now, it is very strong in the center, but very weak in 
intervention in to the affairs or providing services----
    Ms. Davis of California. Yes, is there anything that we can 
be doing?
    I think my time is up.
    The Chairman. Thank you very much.
    Mr. Marshall.
    Mr. Marshall. Thank you, Mr. Chairman.
    Professor Jalali, I am most impressed by your resume. It 
indicates that you speak some seven or eight languages. I have 
a hard time just with English. That is pretty awe-inspiring.
    Looking at your written testimony, if I could get you to 
clarify a couple of things that I don't understand fully. And I 
am just going to go ahead and read a few things which you can 
then comment on, if you don't mind.
    You make reference to an over-focus on force protection at 
the expense of creating durable security. You also reference to 
an over-securitization of the rule of law. This subordinates 
justice to security considerations and turns police into being 
primarily used in combating the insurgency instead of 
protecting law and justice.
    You also say that this result, this process, what I just 
described--well, actually I am just reading your words--results 
in compromising the administration of justice, since the rule 
of law contributes to security in a major way. It sounds like 
you see a real tension between applying appropriate concepts of 
justice and fairness and, at the same time, how we seek to 
obtain security.
    And then you sort of tie this into force protection and 
over-securitization. I guess you are referring not to stocks, 
et cetera, but could you elaborate a little bit on that?
    Mr. Jalali. This has been a problem, reconciling the 
response to immediate security concerns, fighting insurgency, 
and long-term priorities for nation-building and bringing 
stability has always been a problem in Afghanistan.
    The international community's prime reason to go to 
Afghanistan was not nation-building. It was defeating the 
terrorism, the destruction of the terrorist network, and 
overthrowing the Taliban, who actually sponsored the 
terrorists.
    And then afterward, of course, strategically building a 
stable state in Afghanistan was considered to be the means for 
a war on terror, would contribute to the war on terror. 
However, the initial motivation continues to cast a long shadow 
on every aspect of development, including the security.
    The expectation of the people of Afghanistan after 9/11, or 
after the intervention in Afghanistan, was human security. That 
is a very modest expectation. It means freedom from fear, 
freedom from want. And that can be provided only by defeating 
the terrorists or insurgents.
    Mr. Marshall. I have to interrupt. I have a very brief 
period of time here. I have read your testimony. I want to get 
back to trying to clarify those two points specifically.
    You are talking about an over-emphasis on force protection 
and efforts to obtain security. I guess what you are suggesting 
is that in our interests and the allied force's interests in 
attacking the Taliban, we have caused problems.
    Can you be very specific in terms of that, and very brief?
    Mr. Jalali. For example, in the south, alliance with some 
groups in fighting the insurgency actually disappointed people, 
because those allies had a very bad record of human rights.
    On the other hand, just in the name of security, 
unwarranted searches of peaceful villages and taking people in 
custody who had no relations to the insurgents create 
resentment in the area. There are some tribes in the south, in 
the Helmand, who were mistreated and they joined the Taliban.
    Mr. Marshall. Is it your sense that in our efforts to have 
force protection we have caused problems?
    Mr. Jalali. Yes.
    Mr. Marshall. And how have we done that?
    Mr. Jalali. Force protection--I mean, in some countries, 
particularly some NATO countries, they are over-concerned about 
force protection and that actually prevents them from 
intervening in legitimate security situations.
    Mr. Marshall. Could I just real quickly here, in the 
Vietnam effort, one of our policies, which appeared to have a 
substantial amount of success until we disrupted it because we 
didn't really understand why it was having success, was this 
village pacification program. In essence, what we did was we 
encouraged locals to protect their own space.
    I saw in today's Post Selig Harrison talking about a 
dispute between the British and the Americans now about whether 
or not in the southeastern part of Afghanistan we should defer 
to a tribal council that has basically come up with a peace 
agreement between our side and the Taliban. And the Americans 
are saying, no, shouldn't do that, it pays too little heed to 
the role of the central government. And the British are saying, 
no, realistically here, this is like--they are not using these 
terms--village pacification.
    Mr. Jalali. Using jirgahs----
    The Chairman. The time of the gentleman----
    Mr. Jalali. --if I may, is important. However, it should 
not mean submission to the people who are the cause of the 
problem.
    The Chairman. Thank you.
    Mr. Johnson.
    Mr. Johnson. Thank you, Mr. Chairman.
    Gentlemen, I may be a little naive up here. Perhaps some 
things have been covered by the Armed Services Committee in the 
past that I was not privy to, since I just got here just a few 
weeks ago. But, at any rate, I do appreciate having this 
viewpoint presented to the American citizens.
    And I want to, kind of, go back. I understand that, it is 
my recollection that when we went into Afghanistan after the 9/
11 attacks, it was to, to put it nicely, immobilize Osama bin 
Laden and to prevent him from undertaking a similar attack in 
the future.
    Three-thousand Americans killed, and he sat back and 
planned those attacks using his wealth. I believe he is worth 
about $300 million, a Saudi Arabian prince, if you will, a man 
with money, a man with organizational skills, a man with a 
vision to destroy America through terrorism.
    And we went into Afghanistan to stop that, to immobilize 
that threat. Afghanistan was the place, I think you referred to 
it, Ambassador Dobbins, as an incubator, a place that spawned 
this terrorist activity, supported it, nurtured it, and it was 
the Taliban.
    So American went in, routed the Taliban, closed down the 
incubator, if you will, and the incubator has now moved to 
another sovereign nation called Pakistan.
    I believe you indicate, Ambassador Dobbins, in your 
statement that Pakistani intelligence services continue to 
collaborate with the Taliban and other insurgent groups, those 
insurgent groups including al Qaeda.
    So, we have got governmental involvement in fostering those 
groups. They have not gone away. They have not been 
immobilized. I would imagine that Osama bin Laden is preparing 
for his next attack, a man who I believe had some kidney 
problems and was in need of constant and regular dialysis. I 
suppose by this point he has received a kidney transplant. But, 
at any rate, I am imagining that he is sitting up in a nicely 
appointed residence somewhere in Pakistan, not in the 
mountains, but in an urban setting, probably watching old 
videos of Whitney Houston and planning his next attack.
    It seems that we have let him off the hook. We took the 
attention off of Afghanistan, and now are in a quagmire in Iraq 
with no plans of refocusing the attention on eradicating the 
threat of Osama bin Laden.
    Is Osama bin Laden still a threat to the United States? If 
so, what should we do to eradicate that threat?
    Ambassador Dobbins. I agree, Congressman, with most of what 
you have said. Bin Laden is still a threat. Al Qaeda is still a 
threat. Bin Laden is located in Pakistan. Al Qaeda is 
headquartered in Pakistan.
    I didn't want to imply that the Pakistani government was 
supporting al Qaeda. I think there are numerous reports that 
Pakistani intelligence continues to have relationships with al 
Qaeda, but Pakistan has been more aggressive in rounding up al 
Qaeda suspects. They haven't been entirely successful, but they 
have been more aggressive than they have vis-a-vis the Taliban.
    I don't think there are any plausible reports that the 
Pakistani government is supporting or has a relationship with 
al Qaeda. Nevertheless, they have failed to locate bin Laden 
and to roll up what remains of the al Qaeda network in 
Pakistan.
    Mr. Johnson. Dr. Cordesman, what is your response?
    I think I have just been tabled.
    The Chairman. Very quickly.
    Dr. Cordesman. This is only one threat of a very complex 
set of movements. If we got rid of al Qaeda and we got rid of 
bin Laden tomorrow, 90 percent of the problem would still be 
there. We need to remember this every time we look at this 
issue.
    The Chairman. Thank you.
    Ms. Shea-Porter.
    Ms. Shea-Porter. Thank you.
    My question is directed toward Dr. Cordesman.
    I was very, very concerned when you talked about the lack 
of NATO help and the fact that Germany took, I believe you 
said, the high moral ground on this issue. I wanted to ask you 
to expand on that.
    Specifically, what I would like to know is, are they 
reluctant to get involved now because of the way the 
administration treated them at the onset of this war in 
Afghanistan? Does it also tie in with the belief of most 
European nations that we are in the wrong place in Iraq? And 
will the escalation in Iraq weaken NATO support and the 
European nation support for us in Afghanistan?
    Dr. Cordesman. I suspect everybody at this table has a 
different view of how this got started.
    Certainly, the people I talked to, who are German, when 
this began, were much more involved in the security sector than 
the diplomatic one. I think they had, at this point, the same 
feeling we did. We underestimated the resurgence, the level of 
violence that would occur. We didn't understand what the 
mission was going to be. We saw it as a relatively simple task 
in terms of nation-building, which we weren't going to commit 
large resources to. That was as true of us as the Germans.
    When I watch what happens, when you talk to people in the 
German military or the German ministry of defense, they would 
make roughly the same criticisms of the German military 
position in Afghanistan that we would. This is not something 
coming out of people concerned with defense. When you talk to 
people on the civil side there who are German, you will get 
more mixed reactions.
    But I think the truth is, most of this is driven 
internally. Germany simply is not prepared yet to use forces in 
combat. It is not prepared to commit people to the kind of 
nation-building task where there is a significant element where 
you have to use force. And you have a weak coalition government 
that has to deal with a very difficult internal political 
problem. So it is very easy to deploy as long as you don't have 
to use.
    In different ways, you see the same problems for Italy and 
for Spain. Again, with France, special forces have been used. 
The French contingent is only about half the German.
    But we do need to understand these problems are not ones 
dictated by Iraq. They are dictated by the fact people went 
into Afghanistan under wrong assumptions about what was going 
to happen. And politically for many of them, it is one thing to 
talk about power projection. It is another thing to become 
involved in an activity where you take casualties and really 
have to pay the costs.
    Ms. Shea-Porter. Thank you.
    Ambassador Inderfurth, do you think there is any way that 
we can get NATO to step up to the plate and be more involved 
there? I know that we have what I think you call the standby 
countries that don't want to be in the military part of it. But 
do you think they recognize the long-range effects of the 
instability of Afghanistan and that region? And is there 
another way to involve them more in the process?
    Ambassador Inderfurth. I think we can get more assistance 
from NATO. I think that we will see more fighting troops take 
part.
    Again, the numbers needed, according to the NATO commander, 
are not that large. Our NATO friends, our European friends are 
very aware of what is taking place in what I agree is still the 
central front in the war on terrorism, that Afghan-Pakistan 
border and where bin Laden is.
    They also are bearing the brunt of the drug problem. Most 
of the drug trade that comes out of Afghanistan, which produces 
92 percent of the world's opium supply, goes to Europe. So they 
understand the stakes.
    I think that we can get more assistance from them, both in 
terms of troops and in terms of money, reconstruction 
assistance, and in terms of their support for all the broad 
range of activities that need to be done there.
    Ms. Shea-Porter. I am greatly concerned about what is 
happening in Afghanistan. I think it is a place where we can 
win. I think it is a place where we can stabilize the country 
and allow them to flourish.
    I guess what I am asking is, does NATO see that as well? Or 
do they fear that our war with Iraq is also going to somehow 
entangle them if they get more involved in Afghanistan?
    Ambassador Inderfurth. I don't think that they are going to 
be looking at their commitment in Afghanistan based on what we 
do in Iraq. We had a question earlier, which I don't think I 
answered that well, about well, if we are doing this in 
Afghanistan, what about Iraq? I think they do separate these 
out. They see the real war, the real need in Afghanistan.
    Ms. Shea-Porter. Thank you.
    The Chairman. The gentlelady, Ms. Gillibrand.
    Mrs. Gillibrand. Hi. I would like you to address what the 
current status of women in Afghanistan is today and what we 
should be doing as Americans to improve it.
    Mr. Jalali. One of the major achievements in Afghanistan 
during the past five years was improvement in the women's 
status in Afghanistan. I think if you look at the constitution 
of Afghanistan, I think you see many areas and many provisions 
in that constitution that support the participation of women in 
all aspects of life in Afghanistan.
    Today, the constitution guarantees 25 percent of the 
parliament members to be women. However, during the election 
they did better than that, 27 percent are women in the 
Afghanistan parliament, both in the national parliament and 
also in the provisional councils.
    During the Taliban, women and girls were not allowed to go 
to school. Today, 35 percent, about 5.5 million children going 
to school are women. And women also are doing well in other 
areas.
    However, this country is a conservative country. I think it 
will take a long time for the society to provide favorable 
conditions for the equal participation of women, and that 
depends on the development, economic, political and social 
development, and also the development of civil society. Women 
are also involved today in the media, in the free media. There 
are four or five private T.V. stations in Afghanistan, and 
women play a major part in those areas.
    However, further development, again, depends on development 
in all the other aspects of life in the country.
    Ambassador Inderfurth. Could I just add, again, looking at 
the paper prepared by the Afghan government, there is a section 
in here on women. It says, ``While women's rights in 
Afghanistan have made huge strides since 2001, much more needs 
to be done. We urge the international community to continue to 
work with us to strengthen the voice, capacity, education and 
above all the leadership of women in Afghanistan.''
    I traveled to Afghanistan during the Taliban era. The 
draconian measures taken against women were despicable, as my 
boss, Madeleine Albright, said as secretary of state. They have 
changed, but it is a conservative society. It is not going to 
be as open and as free as we see.
    But there is so much that they are committed to doing to 
deal with women's issues in Afghanistan. The government of 
President Karzai is committed to that. And there are things 
that we can do.
    Mr. Jalali. One of my achievements as minister of interior 
was to appoint the first woman governor in Afghanistan. She is 
still the governor of Bamiyan province, and she is doing very 
well.
    Mrs. Gillibrand. The resurgence of the Taliban, what impact 
is it having on the progress that has been made? Is there 
backlash?
    Mr. Jalali. I think in the areas where Talibans are active, 
in the south and southeast, yes, there are some negative impact 
on the women's situation.
    However, it is affecting every other aspect of life of the 
people. It is part of the human security there. So therefore, 
it does not mean that there is going to be reverse. This is 
only kind of a reflection of the security situation in that 
area.
    Ambassador Inderfurth. Part of that is education. The 
Taliban has targeted schools and teachers. And they have closed 
down schools where girls are finally going back. So this is 
having a broad impact across all sectors of society.
    Dr. Cordesman. One point I would raise is the intelligence 
maps, which have been declassified, of what is happening. It 
shows that there is a more than four-fold area of increase in 
Taliban influence in Afghanistan in one year.
    What is equally important is what are called high-crime 
areas. In most high-crime areas there also are problems, in 
terms of schools, the functioning of government, and women. And 
those areas are sharply increasing.
    And they are largely because the aid in the civil effort is 
simply not large enough to reach out into the areas, 
particularly the rural areas where 70 percent of the population 
is. It isn't a matter of passing the right laws. It is having 
the resources to help the Afghans make the right transition.
    Mrs. Gillibrand. Thank you.
    The Chairman. Thank you very much, Ms. Gillibrand.
    Ms. Castor.
    Ms. Castor. Thank you, Mr. Chairman.
    And thank you to the panel for your expert testimony.
    I would like to focus, again, on Pakistan. And could you 
all summarize for me the types of military assistance the 
United States has provided in the past to Pakistan, support for 
their intelligence agencies, other types of diplomatic aid?
    Especially in the context of the Pakistani prime minister's 
comments recently. Mr. Aziz commented last week that people 
sympathetic to the Taliban were active in the frontier region 
near the border, but he insisted that the root of the problem 
was in Afghanistan and not in Pakistan. He said that three 
million Afghan refugees were crowded into Quetta, Peshawar, and 
other Pakistani cities close to the border of the country. And 
he said that refugee population remains a recruiting pool for 
the Taliban insurgency.
    But questions were raised about the role of the Inter-
Service Intelligence (ISI). He said that it was ridiculous that 
elements of Pakistan's intelligence service, the ISI, might be 
acting independently in support of the Taliban. Even though 
there have been many other reports, evidence that the Pakistani 
intelligence agencies were encouraging the insurgency in 
Afghanistan.
    I would like you to meld those concepts, the assistance 
that the United States has provided to the ISI and to the 
government. Are they different? Are they at odds? Because it 
would be a cruel irony that the United States was supporting an 
intelligence agency that was encouraging the Taliban.
    Dr. Cordesman. Let me talk about the ISI briefly. I think 
that you would find most people who have worked on this issue 
would say it is a somewhat divided organization, and some 
elements have tried to deal with this problem more 
realistically than others. But that senior officials in the 
ISI, and particularly retired members of the ISI, remain a 
major issue. They have ties not only to the Taliban and other 
Islamist parties that have Afghan ties, but to Islamist 
hardline parties inside Pakistan.
    I think that this has not been an area where the United 
States military assistance program has had a major impact. One 
does need to be careful when one talks about sharing 
intelligence. You have to share some intelligence with an 
organization like this if you want them to act. You simply 
cannot put pressure on them.
    But this is an organization which, like the intelligence 
services of a number of countries in this region, has political 
clout and leverage very different from the intelligence 
community in the United States. It doesn't need our aid or 
money to have that power and function in the way that it is 
functioning. It hasn't been built up by us. You can go back to 
Field Marshal Zia; you can go back to the growth of the ISI at 
the time the Russians were there. It is a problem, but I don't 
think we can be accused of aiding them in ways which have 
helped this problem grow.
    Mr. Jalali. Pakistan is an ally in the war on terrorism. 
However, Pakistan looks at it in the context of regional 
interests.
    Pakistan has been very active in going after al Qaeda 
members in Pakistan and arrested them in Pakistan, many of 
them, hundreds of them. However, they fail to contain the 
Taliban the same way. Pakistan does not know whether 
Afghanistan will stabilize, whether the international community 
will be in Afghanistan forever. So it keeps its options open.
    On the other hand, there is a huge infrastructure of 
religious parties in Pakistan who are supporting the Taliban. 
And then for Pakistan, it is more convenient to deal with them 
in a way not only in Afghanistan but to support other options 
or other, you know, issues of this foreign policy, as long as 
the Kashmir issue is there.
    So therefore, Pakistan looks at it in the context of the 
regional interests. Therefore, as I suggested, this issue has 
to be approached in the context of regional strategy from the 
United States as well. And the solution should be sought 
through regional approach, rather than dealing separately with 
Pakistan, separately with Afghanistan and other countries.
    Ambassador Inderfurth. A quick answer on assistance. After 
9/11 and all sanctions were removed from Pakistan, President 
Bush announced a three billion dollars, five-year package of 
economic and military assistance to Pakistan, divided equally 
over that period. We have also proceeded with the sale of F-16 
aircraft. So we have positive leverage there to use with 
Pakistan--positive leverage.
    Ms. Castor. Thank you.
    The Chairman. I thank the gentlelady.
    As I mentioned before, I reserved my questions. And I would 
like to ask each of you a question.
    Ambassador Dobbins, in your opinion, what needs to be done 
to head off the so-called anticipated spring insurgency?
    Ambassador Dobbins. Well, I think, in the short term, the 
measures that the Administration is proposing, an increase in 
the U.S. troop strength, an effort to get NATO to increase its 
troop strength and increase in the levels of economic 
assistance to the country, are probably the right moves to head 
off or, if not head off, at least deal adequately with this 
anticipated spring offensive.
    As I have suggested, I think we are going to be doing this 
every year for a long time, unless we can also better address 
the situation on the other side of the frontier.
    The Chairman. Thank you very much.
    Minister Jalali, the Afghan National Army has a good number 
of problems. How do we strengthen that army? Is there a 
relationship to the way we are doing things in Iraq to what we 
may or may not be doing with the Afghan army?
    Mr. Jalali. Mr. Chairman, building a national army in 
Afghanistan is a very difficult challenge. This is the fourth 
time in 150 years that Afghanistan is rebuilding its national 
army after a period of instability.
    The current army was actually started in 2002. It was 
expected by now that we would have about 60,000 or up to 70,000 
in the army. However, several reasons, you know, several 
factors contributed to a slow progress of the national army.
    First, the long period of war, factionalism in Afghanistan. 
And, therefore, local loyalties as opposed to national loyalty 
has been a problem in the beginning. Of course, today, the 
Afghanistan National Army is a multi-ethnic army.
    However, the other issue is incentives, the pay system. 
Although Afghan soldiers are paid better than police, better 
than other, you know, common Afghans; however, it is not an 
incentive that will keep many soldiers in the force. So, 
desertion is rampant in many areas.
    Third, the other thing is training. The training has not 
been adequate in the beginning. Six weeks or eight weeks of 
training and later on with the improvement of coaching and 
better training, I think it improved somehow. But still, in 
some areas, this is a problem.
    And third, the equipment. They are not equipped and armed 
with effective weapons, and also protection. So therefore, they 
are not as effective as it used to be. When they are not 
effective, this increases the rates of desertion.
    On the other hand, mobility. They cannot move quickly from 
place to place.
    And the fifth one is the ownership, Afghan ownership. Since 
the embedded trainers from the United States and other 
countries are there, the deployment of Afghan army is not 
solely the decision of the minister of defense of Afghanistan 
or the general staff. It has to be coordinated with the 
coalition forces. Therefore, sometimes this lack of Afghan 
ownership causes problems.
    The Chairman. Thank you very much.
    Ambassador Inderfurth, I was intrigued when you earlier 
said that the Afghan people have never seen us as occupiers, as 
obviously is not the case in Iraq. Would you explain to us why 
that is correct?
    Ambassador Inderfurth. I will do that. Could I add just one 
comment about what Minister Jalali just said?
    The Afghan police are in worse shape than the army. And 
there is a great deal that needs to be done to make sure that 
they get the kind of equipment, training to do their job in the 
field, which is probably, right now, more important for 
security.
    The Chairman. Are they a local----
    Ambassador Inderfurth. National army----
    The Chairman. No, no, no, no. The police.
    Ambassador Inderfurth. That is right.
    The Chairman. They are local.
    Ambassador Inderfurth. They are the cops on the beat.
    The Chairman. Right.
    Ambassador Inderfurth. And a lot of them are corrupt, and 
they are causing more insecurity than security for the Afghan 
people, which is turning them against the government.
    The Chairman. Right. All right.
    Ambassador Inderfurth. On the question of non-occupiers, I 
mean, the history of Afghanistan is one in which any foreign 
nation that has tried to exert its control, whether it be the 
British or the Soviets or others, bringing in troops, have been 
repulsed. That has not happened to our involvement after 9/11, 
and we are still not seen as occupiers.
    Sometimes, when things go wrong, including on military 
strikes that have civilian casualties, that is going to impact 
that. But the Afghan people still appreciate and still speak of 
the assistance that we provided them during the Soviet 
occupation. We did more through our assistance to the 
mujahedeen to help liberate their country from the Soviets. 
They still appreciate that.
    And they appreciate what we are doing now. And, if 
anything, they want us to make sure to stay and that we don't 
walk away from Afghanistan again, as we did in 1989 after the 
Soviets left.
    The Chairman. Thank you.
    Dr. Cordesman, yesterday at lunch I had the opportunity to 
ask a question of President Karzai, and I will ask a similar 
question of you: What does it take to rout out the heroin and 
drug problem?
    I told him that if there is any one issue that has the 
potential of turning the American people against our 
involvement in Afghanistan, it is the growing of the poppy. And 
it hasn't reached that, of course, at the present time, but I 
think I am correct that, over a period of time, if it is not 
addressed successfully, I think it could be a major problem 
toward American public opinion.
    Doctor.
    Dr. Cordesman. You know, I am very reluctant to answer that 
question, because I have watched the war on drugs in various 
forms since it was started and I was working for the Senate 
Armed Services Committee staff. And it has been a very, very 
popular thing in Congress.
    Its impact on the street price of drugs has been virtually 
nonexistent. The number of seizures has often gone up; it has 
sometimes gone down.
    When you talk about eradicating narcotics in Afghanistan, 
you may reduce the volume, you may shift people to other crops, 
but it is too isolated, too complex a society to eliminate 
this. And the idea that you can, in this country with this 
level of rural growing, lack of central authority, ever achieve 
a business where you do more than somewhat reduce the supply 
within the near future is simply not practical.
    I know that is an answer no one in the Congress wants to 
hear, but we really need to be honest about what has happened 
in our own counter-narcotics programs and the similar ones in 
Latin America.
    And here we are two years away from the new police program 
producing a significant output of people trying to counter 
narcotics. We are years away from getting effective aid 
programs into the field at the rural level which actually get 
to the areas which can change the crops. And most of those 
require honesty and integrity we haven't got.
    There are areas in the border areas where it would take so 
many troops to actually have eradication that we already have 
seen these efforts fail and simply end up alienating tribes 
without reducing production.
    So, to be perfectly honest, yes, this will be unpopular. 
Yes, even though if we got a 50-percent reduction in output in 
5 years, which would be an amazing real-world achievement, it 
also wouldn't make much of a difference.
    The Chairman. Recently, I think yesterday, maybe the day 
before, the Administration appears to be holding the Colombia, 
in its decades-long struggle against narcotic traffickers and 
insurgences, as a model for the Afghan government today.
    Dr. Cordesman, do you agree with that?
    Dr. Cordesman. A model of what? As far as I know, if you go 
down to northeast Washington, you can get it cheaper than you 
could ten years ago in constant dollars.
    I find this is sort of like these narcotics seizures where 
everybody suddenly says the street price is worth all this vast 
amount of money, but these kinds of losses are part of the cost 
of doing business.
    And let me note that, in Europe, which is the main market 
for Afghan drugs, what has happened is you have seen heroin 
displace the sharp growth of synthetics, which were being 
produced in Europe. If you solve the Afghan problem, you are 
not going to solve the European problem. You will just push 
them back toward synthetics.
    This is a demand-driven problem, not a supply-driven. And, 
yes, politically, everybody claims we have made progress in 
cutting supply. They have been making it ever since the rise of 
drugs in the 1960's, but we all only have to look around to 
know what the reality is here, the United States, and all over 
the world.
    The Chairman. I think there was a war in China known as the 
opium war. Am I not correct?
    Dr. Cordesman. That is right. And opium won. [Laughter.]
    The Chairman. Okay. Well, gentlemen, you have been a--oh, 
excuse me.
    Jim Cooper, I did not see you come in. Mr. Cooper.
    Mr. Cooper. Thank you, Mr. Chairman. I apologize to you and 
the witnesses to have to be in and out, because I had three 
simultaneous hearings today.
    But I want to congratulate you, Mr. Chairman. It is 
wonderful to see our committee return to real hearings. Thank 
you.
    The Chairman. Well, thank you for your kindness.
    Mr. Cooper. It is an excellent panel.
    I was struck by Ambassador Dobbins's testimony, on page 7, 
when he says, ``Afghanistan has never been a self-sufficient 
state, and it probably never will be. It is simply too poor to 
be able to raise the revenues necessary to provide security and 
effective governance.''
    That is the sort of breath-taking clarity that we just 
heard from Tony Cordesman on the drug question, but it is 
something that people don't want to acknowledge.
    There is a functioning warlord system there, so at least in 
discrete areas they seem to be able to govern, at least in the 
warlord fashion. Have we ever had a relationship with a country 
without a central government, where we just dealt 
systematically with warlords in a successful fashion?
    Ambassador Dobbins. I can't think of one in which we dealt 
in a successful fashion. I mean, Somalia would be an even more 
extreme case.
    I don't want my statement to suggest that the situation in 
Afghanistan is hopeless. Afghanistan is going to be a recipient 
of external assistance indefinitely, and it is going to require 
it. It has required it for several hundred years. But in a 
benign environment in which all of its neighbors see a common 
interest in supporting a moderate, nonthreatening government, I 
think we have the prospect of helping Afghanistan along and 
reducing the prospect of conflict, both within it and in its 
broader region.
    There is an impression that the United States formed a 
coalition and liberated Afghanistan, whereas the fact is we 
joined a coalition that had been fighting the Taliban for a 
decade, which consisted of Iran, Russia, India and the Northern 
Alliance. And with the addition of American airpower and the 
subtraction of Pakistani support for the Taliban, that 
coalition prevailed.
    And in the Bonn conference, we were able to build on that 
coalition and bring all of those neighboring states into the 
process of nation-building in Afghanistan in a benign and 
positive way. And we need to recreate that.
    The major outlier and problem, in this case, is not Iran; 
it is Pakistan. And if we can recreate a sense of common 
endeavor with respect to Afghanistan, then I think the 
prospects are positive.
    Mr. Cooper. I like your focus on Pakistan. And it made me 
wonder that we shouldn't concentrate on nation-building, but 
not so much in Afghanistan as in Pakistan, your focus on the 
Kashmir problem and those situations. It is difficult to call 
Pakistan an ally when there are so many ambiguities and 
troubles and problems.
    Dr. Cordesman pointed out how popular the Taliban and 
several other Islamic groups are in Paktika province, for 
example. I visited there a year or so ago, and it is difficult 
for Americans to comprehend the remoteness. And we were told 
that it is the size of New Hampshire, and in the entire area, 
there is about one mile of paved road. That is incomprehensible 
to the average American.
    And with 67 percent popularity for the Taliban in that 
region, you know, what can you do about it? And, you know, with 
a safe haven offered right across the border by the Pakistanis.
    Dr. Cordesman. Congressman, if I may suggest, I think that 
if you look at the plans that the aid people have that they 
would like to be able to implement, we are often talking things 
like dams, simple gravel roads, maybe the odd generator, maybe 
a school building or a clinic in a given area. We are not 
talking vast expenditures.
    What we are talking about is something that just isn't 
there at all yet. You don't have the presence in the field. We 
have been concentrating in other areas; we haven't had the 
resources. In areas like this, it would take time, but it would 
make a tremendous difference if you could do very, very little.
    And, in many cases, the Afghans can do it themselves if 
somebody can get them the material, set up the conditions that 
allow them to operate. There simply isn't the structure of 
governance, there isn't the security presence yet to do it.
    So I believe, in most of the areas where the Taliban has 
grown and gained support, a partnership with the Afghan 
government, with Afghan groups, and very, very limited 
resources could have a tremendous impact. The difficulty is 
there is almost nothing now, just showpiece projects in a few 
isolated areas, not a campaign, not a systematic effort.
    Ambassador Inderfurth. Congressman, you talked about the 
relationship between the United States and Pakistan, and you 
asked whether or not we are allies. I want to call your 
attention to the best book on the U.S. history of diplomatic 
relations with Pakistan. It is entitled, Disenchanted Allies. 
It goes back over our 60-year period.
    And we are in another disenchanted period, unfortunately, 
because of what is happening along that border. And we need 
Pakistan's assistance. And I hope that we can turn this around.
    Mr. Cooper. At some point, back to Dr. Cordesman's point, 
we have been in Afghanistan for four or five years. We have 
troops operating, at least in Paktika. I don't know about the 
Provincial Reconstruction Teams. For the Taliban to be 67 
percent popular there today, after 5 years of U.S. presence, 
indicates 5 years of, perhaps, wasted effort. Maybe we would 
have been even less popular if we hadn't done the few show 
projects that we have done.
    But we hear that the road from Kabul to Kandahar is being 
supplied with asphalt from a plant in Pakistan, so the truck 
has to drive over the Khyber Pass to produce the asphalt, 
because there is not even an asphalt plant. You know, that 
sounds to the average American taxpayer like a ridiculous 
expenditure.
    I see that my time has expired.
    The Chairman. I thank the gentleman.
    And Mr. Sestak.
    Mr. Sestak. Thanks, Mr. Chairman.
    Sirs, I apologize. I left after the first hour to go to 
another hearing.
    I was on the ground in Afghanistan about two months after 
the war began, and then brought a carrier battle group back, 
because we flew over it, and then came back and was on the 
ground again for a short period of time, 18 months after my 
first visit.
    To some degree, on the first visit, because it was just 60 
days after the war began, over Christmas time, I saw what 
needed to be done, I thought. And when I came back and spoke 
with the general 18 months later, I can remember the comment 
of, ``We are keeping our finger in the dike,'' as civil affairs 
units and special forces had been placed into a different war 
in Iraq.
    The chairman has taken us, and is taking us, through 
certain set pieces on our security environment. Afghanistan is 
today; before, Iraq; and I am sure there will be other set 
pieces.
    And since most of the questions duly were probably asked, 
my question for you all is: Having seen Afghanistan become prey 
to terrorists and the Taliban come back into the southern 
provinces, and watching what has occurred in Iraq, are we more 
secure in our strategic security environment today because of 
these two pieces? And, if not, what is the right approach?
    And, Mr. Ambassador, if you didn't mind starting?
    Ambassador Dobbins. Well, I think that, clearly, al Qaeda, 
bin Laden have more difficulty operating from their sanctuaries 
in Pakistan than they did from their much more unrestrained 
sanctuaries in Afghanistan. And so, in that sense, we have 
dispersed them, we have made operations more difficult, we have 
put them under pressure, and of course we have destroyed some 
of their leadership.
    So, in a narrow sense, the situation is better than it was 
prior to 9/11.
    The situation is also better for the Afghans. There is a 
civil war under way in Afghanistan, but there was a civil war 
under way in Afghanistan before 9/11. It was a civil war in 
which the Taliban were in Kabul and the rebels were in the 
northern part of the country. But the country has been in civil 
war for 25 years.
    So, again, the situation now is probably better than it was 
for the Afghans prior to 9/11.
    I suspect you are asking a larger question on whether----
    Mr. Sestak. Yes, on a strategic security environment. 
Because I think that is where the chairman is taking us in 
these set pieces. And you had addressed these issues in the 
previous questions.
    Ambassador Dobbins. I mean, you know, again, moving beyond 
those narrower judgments, the level of hostility to the United 
States in Muslim society has risen significantly and creates a 
pool from which terrorists can draw support, acquiescence and 
even recruits that is extremely large.
    This has not occurred because of our intervention in 
Afghanistan or our inadequate nation-building efforts in 
Afghanistan, which are, broadly speaking, popular in the Muslim 
world, but largely as the result of the intervention in Iraq 
and the mishandling of the post-conflict reconstruction there.
    Mr. Sestak. But, in a strategic sense, are we, in this 
global war on terror, more secure there?
    Ambassador Dobbins. I would say, on balance, that there has 
been exponential growth in the number and variety of terrorist 
groups who are inclined to target American interests and 
assets.
    Mr. Sestak. Yes, sir.
    Mr. Ambassador.
    Ambassador Inderfurth. I would simply put it this way: that 
we have taken Afghanistan off the table as a base for al Qaeda. 
But I believe that our strategic security environment has 
worsened overall as a result of our involvement in Iraq.
    Mr. Sestak. Sir?
    Mr. Jalali. I agree with both ambassadors that, as far as 
Afghanistan is concerned, the situation is better than before. 
However, the other threats are not related closely with 
Afghanistan. Therefore, there are many other reasons that 
causes threats to the security in the United States, including 
Iraq.
    Mr. Sestak. Dr. Cordesman.
    Dr. Cordesman. I think one of our great problems is that we 
focus on the two countries we see, Iraq and Afghanistan, but 
this was a major cultural, political and ideological problem in 
some 60 to 80 countries before 9/11. It is going to be an 
enduring problem for at least another 10 to 15 years, almost 
regardless of what happens in Iraq and Afghanistan. There is a 
reason people call this a long war. And we have to accept it, 
just as we did the Cold War, as an enduring security issue.
    Mr. Sestak. Yes, sir, but I was building off your comment 
earlier, that we need metrics----
    The Chairman. The gentleman's time has expired. I assume 
there are no additional questions of this panel.
    Yes? You have an answer to a question that hasn't been 
asked. Go ahead, Mr. Ambassador. [Laughter.]
    Ambassador Inderfurth. May I have a 30-second correct-the-
record remark?
    The Chairman. You bet.
    Ambassador Inderfurth. When we were talking, going back to 
Congressman Hunter's substituting orchards for poppies, I 
mentioned a group called Seeds of Peace. It is actually Roots 
of Peace, in California. That is an important alternative 
livelihood.
    But I also would like just to associate myself with 
something that Dr. Cordesman said, that this will take years of 
effort to make this effort. Five years in, we have another 
decade to go.
    The Chairman. Thank you very much.
    This has been a very impressive panel. And, gentlemen, we 
appreciate your expertise and your time, your being with us. 
Needless to say, this is a very challenging issue for our 
country.
    It was a thrill to be with Speaker Pelosi yesterday in 
Afghanistan and with the long discussion, as well as the long 
luncheon with Ambassador Karzai as well as other leaders within 
the parliament. And I came away, frankly, with a more positive 
impression than I had had before. I guess, in ordinary terms, I 
felt there was some light at the end of the tunnel.
    But there are challenges, as you have so aptly pointed out 
today, each of you, that we face, different challenges than we 
face in Iraq. And it is particularly heartening to know that we 
are not looked upon as occupiers. And the attitude there that I 
felt toward us was a positive one.
    Well, gentlemen, thank you very, very much for this very 
enlightening and excellent hearing.
    We are adjourned.
    [Whereupon, at 12:50 p.m., the committee was adjourned.]


      
=======================================================================




                            A P P E N D I X

                            January 30, 2007

=======================================================================

      


      
=======================================================================


              PREPARED STATEMENTS SUBMITTED FOR THE RECORD

                            January 30, 2007

=======================================================================

      
      
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

      
=======================================================================


                   DOCUMENTS SUBMITTED FOR THE RECORD

                            January 30, 2007

=======================================================================

      
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
                                  <all>

</pre></body></html>
